<html>
<title> - SECURING OUR BORDERS: WHAT HAVE WE LEARNED FROM GOVERNMENT INITIATIVES AND CITIZEN PATROLS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





SECURING OUR BORDERS: WHAT HAVE WE LEARNED FROM GOVERNMENT INITIATIVES 
                          AND CITIZEN PATROLS?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2005

                               __________

                           Serial No. 109-24

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-365                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2005.....................................     1
Statement of:
    Bonner, Robert C., Commissioner, U.S. Customs and Border 
      Protection, U.S. Department of Homeland Security...........    30
    Bonner, T.J., president, National Border Patrol Council, 
      accompanied by Daryl Schermerhorn, regional vice president, 
      National Border Patrol Council; Chris Simcox, co-founder, 
      the Minuteman Project; and Janice Kephart, former counsel, 
      the National Commission of Terrorist Attacks Upon the 
      United States..............................................    73
        Bonner, T.J..............................................    73
        Kephart, Janice..........................................    96
        Simcox, Chris............................................    82
Letters, statements, etc., submitted for the record by:
    Bonner, Robert C., Commissioner, U.S. Customs and Border 
      Protection, U.S. Department of Homeland Security, prepared 
      statement of...............................................    33
    Bonner, T.J., president, National Border Patrol Council, 
      prepared statement of......................................    75
    Brown-Waite, Hon. Ginny, a Representative in Congress from 
      the State of Florida, prepared statement of................    69
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................   144
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    52
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................   146
    Kephart, Janice, former counsel, the National Commission of 
      Terrorist Attacks Upon the United States, prepared 
      statement of...............................................    98
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Letter dated March 8, 2005...............................    25
        Prepared statement of....................................    17
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........    63
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   148
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........     8
    Sanchez, Hon. Linda T., a Representative in Congress from the 
      State of California, prepared statement of.................   129
    Simcox, Chris, co-founder, the Minuteman Project, prepared 
      statement of...............................................    84
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    13
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland, prepared statement of...................   126
    Westmoreland, Hon. Lynn A., a Representative in Congress from 
      the State of Georgia, prepared statement of................   149

 
SECURING OUR BORDERS: WHAT HAVE WE LEARNED FROM GOVERNMENT INITIATIVES 
                          AND CITIZEN PATROLS?

                              ----------                              


                         THURSDAY, MAY 12, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Gutknecht, Souder, 
Duncan, Brown-Waite, Marchant, Westmoreland, McHenry, Dent, 
Cummings, Kucinich, Van Hollen, Sanchez, Ruppersberger, and 
Norton.
    Staff present: Keith Ausbrook, chief counsel; Jennifer 
Safavian, chief counsel for oversight and investigations; Anne 
Marie Turner and Jim Moore, counsels; Rob White, press 
secretary; Drew Crockett, deputy director of communications; 
Brian Stout, professional staff member; Teresa Austin, chief 
clerk; Sarah D'Orsie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Andrew James, staff assistant; Tony 
Haywood, minority counsel; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Good afternoon. We are here today to 
discuss border security.
    This hearing has been a long time in the making, as it 
builds on the committee's 2 years of extensive oversight of 
Customs and Border Protection [CBP], including numerous 
committee trips to the southern border and a subcommittee 
hearing in Arizona.
    Ensuring the integrity of our Nation's borders has always 
been important, but since September 11, 2001, it has become 
essential. The primary obligation of any government is the 
safety and security of its citizens, and to fulfill that 
obligation, we must first be able to prevent those individuals 
who seek to do us harm from entering the United States. Our 
concern is not naive or misplaced. In addition to the ongoing 
threat of criminals engaged in human or drug trafficking, 
recent congressional testimony from the Department of Homeland 
Security [DHS], has highlighted intelligence reports suggesting 
that al Qaeda is considering using the southwest border to 
infiltrate the United States.
    Concern for the integrity and control of our borders is far 
from new, especially along the southern border. This area has 
long been targeted by the Federal Government for enhanced 
security due to the overwhelming volume of illegal crossings. 
In 1993, a study commissioned by the Office of National Drug 
Control Policy concluded that the southwest border was being 
overrun, estimating that 6,000 individuals attempted to enter 
the United States illegally every night along a 7\1/2\ mile 
stretch of the San Diego border.
    As a result, the Southwest Border Strategy was created, 
calling for additional personnel, equipment, and infrastructure 
improvements. The strategy also involved multi-year operations, 
such as Operation Gatekeeper in San Diego, Operation Hold the 
Line in El Paso, Operation Rio Grande in McAllen, and Operation 
Safeguard in Tucson to target the most vulnerable and most 
heavily trafficked border areas at that time.
    More recently, on March 16, 2004, in response to the 
continuing high levels of apprehensions in the Tucson sector, 
CBP launched the Arizona Border Control [ABC], Initiative, 
which just recently moved into phase 2. ABC seeks to coordinate 
Federal, State and local authorities to control the Arizona 
border by detecting, arresting and deterring anyone seeking to 
enter the country illegally. The initiative seeks to increase 
the use of technology and the number of ``boots on the ground'' 
to establish a benchmark for resource allocations and 
commitments in order to gain operational control of the Arizona 
border.
    Despite all of the work of Legacy INS and CBP through these 
various initiatives, the fact remains that we do not yet have 
operational control of our borders. These operations have been 
successful in increasing the number of apprehensions at those 
targeted areas of our border. It does not appear, however, that 
we have been able to translate the lessons learned into a 
comprehensive plan that shuts down our borders to illegal 
traffic. In fact, we currently do not even have complete 
visibility and awareness, there are many points along our 
borders where the Federal Government is effectively blind.
    Recently, citizens frustrated by the number of individuals 
entering our country illegally on the southern border have 
begun to band together and start their own citizen patrols. 
During the month of April, the Minuteman Project announced the 
placement of 857 volunteers along the Arizona border. The 
project claims their efforts resulted in the apprehension by 
the Border Patrol of 335 individuals illegally crossing the 
border, and we will hear more about their efforts today.
    Officials within DHS have repeatedly stated that we are 
moving in the right direction, and I have no doubt that we are. 
The concern of this committee, and many others in Congress, and 
the American public, is the pace and the efficiency of the 
effort to make progress. We need to move beyond broad policy 
statements and get down to the facts. How will we know when we 
have achieved operational control of our borders? How many 
boots on the ground and cameras in the sky will it take to get 
there? What are the funding requirements going to be?
    Congress needs to hear the hard truths about the state of 
the border so that we know what we must do to achieve our 
mission. We need to move beyond discrete initiatives and take 
what we have learned to create an effective, agile, layered and 
comprehensive border security strategy.
    There is not only great urgency in addressing these needs, 
but a vital requirement that we do this right. Therefore, we 
must not only work harder and faster, but smarter. Technology 
applications such as sensors, cameras, blimps and unmanned 
aerial vehicles have the ability to serve as force multipliers, 
and there is no question we need more of it.
    Let me also say this is not the time or the forum to point 
fingers. Debates about immigration policy have no place in this 
discussion. Whether you favor a more permissive or restrictive 
stance on immigration, a functioning and structurally sound 
border is the basic building block of any workable policy.
    We hope to learn today about technological advances and 
infrastructure improvements that CBP is currently implementing 
at the border. We also hope to learn some answers to the 
question of whether CBP is adequately staffing and training 
agents at the border.
    Finally, we hope to address the public's growing concerns 
about the capability and the will of the Federal Government to 
establish operational control of the southern border.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.001
    
    [GRAPHIC] [TIFF OMITTED] T1365.002
    
    Chairman Tom Davis. I now recognize Mr. Ruppersberger for 
an opening statement.
    Mr. Ruppersberger. Mr. Chairman, thank you for having this 
important hearing.
    First, protecting our borders must be our No. 1 priority 
with respect to our national security. We must do everything we 
can to stop illegal immigration.
    We are here today to talk about our borders and if we are 
doing enough to keep our country secure. We are also going to 
discuss the actions of private citizens and their efforts to 
protect our borders.
    We all know, the drug dealers know, the terrorists know 
that our borders are a sieve. This is a serious concern, and I 
know that the Members in the border States have been working on 
this issue for awhile. We must look for more agents on the 
border. We need better technology, and we need a more 
comprehensive solution.
    The question is how we stop illegal immigration. In my 
opinion, the only way to stop illegal immigration is to have 
the manpower or the boots on the ground to patrol and stop the 
crossings.
    I have introduced legislation to add an additional 2,000 
agents per year for the next 5 years to our borders. That is 
10,000 agents in total. Manpower and boots on the ground is an 
important tool to fill the gaps in our border. I would also 
suggest a comprehensive border solution where we bring DEA, 
border agents, customs, CIA, FBI, and NSA into an interagency 
task force like we have with the JTTF, which is a Joint 
Terrorism Task Force to fight terrorism, or the Joint 
Interagency Task Force in Key West that fights drug shipments.
    While that is what we are focusing on in Congress, and 
hopefully in our law enforcement, we need to look at what the 
citizens are doing. There has been an issue with the Minutemen, 
and some people are concerned that they might be considered 
vigilantes. There are other people who think they are doing the 
job.
    My former job when I was a Baltimore County executive, we 
had citizens on patrol, and these were volunteers that worked 
with police and the only equipment they had were microphones. 
They were eyes and ears. They were not involved in any arrests. 
They worked tremendously. Whenever we had a citizens on patrol 
in a neighborhood that had a serious crime problem, crime 
dropped. One of the most important issues with the citizens on 
patrol, as we need to do with the Minutemen, is that they need 
to be managed properly. They need to be managed properly by law 
enforcement who have the jurisdiction on the border. Law 
enforcement needs to know what they are doing at all times and 
that they have an agenda because everyone needs a boss, and we 
have to have that accountability.
    My concern is we have well-meaning people with the 
Minutemen, but one person who steps out of line and creates a 
vigilante-type situation could hurt the entire program. It is 
management at the top and making sure that they know what they 
are supposed to do and that the people in charge are always 
there and working with them. They can be a tremendous asset and 
tool. They can be eyes and ears because we do not have enough 
people working on our border patrol to deal with this entire 
problem.
    We must as a country focus on this issue. We need to remove 
the fear and politicization of the issue out of Congress. For 
too many years, Congress has used immigration as a tool for 
votes without much action and without real solutions. Because 
of that, people have sought to fix a problem where there should 
be a solution to this issue of illegal immigration. We need to 
stop abrogating our role in Congress, and we need to fund more 
Border Patrol agents and get more technology on the border. 
Thank you.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T1365.003

[GRAPHIC] [TIFF OMITTED] T1365.004

[GRAPHIC] [TIFF OMITTED] T1365.005

    Chairman Tom Davis. Thank you. We have the chairman of the 
Subcommittee on Drug Policy, Mr. Souder.
    Mr. Souder. Mr. Chairman, I am grateful to you and the 
ranking member, Mr. Waxman, for holding this hearing discussing 
the critical issue of securing our borders.
    As chairman of the subcommittee charged with oversight of 
all drug control programs, as well as an original member of the 
Committee on Homeland Security, I am very familiar with the 
challenges of securing our borders.
    My subcommittee has focused extensively on narcotics 
smuggling activities across the borders. And in July 2002, we 
issued a comprehensive congressional report which discussed the 
challenges about which you will be hearing today.
    The southwest border remains a primary conduit of illegal 
drugs into our country. With up to three-quarters of the 
narcotics coming across it, the problem is not going away. Drug 
seizures here have risen significantly during this decade, even 
as they fell in other parts of the country. It seems almost 
every week, law enforcement agents discover huge shipments of 
drugs in this area.
    Drug smuggling and related crime have taken a toll on the 
environment and the quality of life for local residents, 
besides presenting a threat to the entire Nation. According to 
the Centers for Disease Control, preliminary estimates for 
2003, over 25,000 Americans died of drug-related causes. To put 
this in perspective, we have never lost this many Americans 
annually to a post World War II military or terrorist campaign. 
This staggering statistic is significant when we consider that 
we have lost over 1,500 brave Americans in Iraq since Operation 
Iraqi Freedom began, accounting for less than 3 percent of 
those lost to drugs over the same period of time. We have lost 
more Americans to drugs than were killed in all terrorist acts 
to date.
    Therefore, it is vitally important that we maintain 
vigorous efforts to control the sources and supplies for 
narcotics as we attempt to secure our borders. The Department 
of Homeland Security is an absolutely crucial player in our 
efforts to secure the borders. When Congress created the 
department in 2002, it combined some of the most important 
border security agencies in the Federal Government: The Border 
Patrol agents, the former INS and Customs inspectors, the 
Customs special agents, the former Customs pilots, represent 
America's front line against smugglers and drug traffickers.
    Although there are certainly other Federal agencies with 
vital roles in our fight to achieve some type of border 
control, the Department of Homeland Security and specifically 
CBP, is largely responsible for manning the front lines in this 
mission. Without them, we would have little or no defense 
against the smugglers, people or drugs at our borders. Thus, it 
is vitally important that these agencies remain focused and 
adaptive to various threats as they attempt to secure the 
borders and that they be provided the tools and authority to do 
their jobs. Several issues have arisen, however, that need to 
be addressed to ensure that DHS remains on track in the 
struggle to secure our borders and protect against drug 
trafficking.
    In particular, Congress and the administration need to work 
together to ensure that the structures and procedures at the 
Department reflect the importance of border security and 
counternarcotics. No one doubts the individuals currently 
serving at the department have a strong personal commitment. In 
particular, Mr. Bonner here today, to controlling the borders 
and stopping drug trafficking, but we need to make sure that 
over the long term, the Department is institutionally committed 
to these challenges.
    The first and foremost obvious issue is what is the plan? 
Does CBP have a strategic plan to address border security, a 
comprehensive, layered interagency plan to address border 
security? If we do not have a comprehensive idea of what we 
want to achieve, which threats we need to address and which 
agencies will lead, then we cannot believe our border security 
efforts will be successful. For example, at present there are 
two entities within CBP that have substantial air and/or marine 
operations, the Office of Air and Marine Operations [AMO], and 
the Border Patrol. These entities do not communicate with each 
other on a systematic basis about their fights or marine 
operations, even when they overlap with respect to mission and 
their geographic area. This has created a significant problem 
with duplication of effort and a safety issue for the pilots 
and boat operators involved. Additional issues of intelligence 
sharing, coordinated investigations and operational 
deconfliction must be addressed if CBP is to maximize its 
effectiveness along the borders and against drug traffickers.
    As the gentleman with us today fully knows, I think that is 
an artificial distinction and ICE and CBP need to be combined, 
and we will continue on that mission as long as I am in this 
position and until it is recognized. And Department of Homeland 
Security and everybody in the field knows it, and most of the 
leaders know it. We just need to get this done. I am concerned 
that although surge operations, as we have just seen, may be 
temporarily successful in controlling a portion of the land 
border, we may be at the same time permitting gaping holes 
somewhere else in the arrival zone.
    At a recent hearing in my subcommittee, we heard about 
critical shortages of marine patrol aircraft to support known 
drug smuggling activities in the maritime transit zones. Are we 
giving up our transit zones to secure the Arizona border? Are 
we catching the little fish and missing the big ones? We need 
to closely examine how well the multiple agencies charged with 
border security responsibilities are coordinating their efforts 
with each other and with their State and local law enforcement 
partners. We know we still lack adequate technologies and 
integrated information systems to maximize our efforts. We are 
working toward that goal. It is my hope at this hearing we will 
learn what steps Department of Homeland Security and CBP are 
taking to improve agency cooperation and security in securing 
our borders.
    I also hope to hear about what new initiatives CBP agencies 
have put in place to stay ahead of the smugglers and 
traffickers. These issues are all very important and extremely 
urgent. We look forward to hearing from our witnesses today 
about ways to address them. I thank everybody for taking time 
for this hearing.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.006
    
    [GRAPHIC] [TIFF OMITTED] T1365.007
    
    [GRAPHIC] [TIFF OMITTED] T1365.008
    
    Chairman Tom Davis. All members will have 5 days to include 
statements for the record.
    Our first witness has a time limit. I know Mr. Kucinich 
wanted to say something.
    Mr. Kucinich. I will be brief out of deference to the 
Chair's concern about the witness' time.
    I will ask that my opening statement be included in the 
record.
    Chairman Tom Davis. Without objection.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1365.009

[GRAPHIC] [TIFF OMITTED] T1365.010

[GRAPHIC] [TIFF OMITTED] T1365.011

[GRAPHIC] [TIFF OMITTED] T1365.012

[GRAPHIC] [TIFF OMITTED] T1365.013

[GRAPHIC] [TIFF OMITTED] T1365.014

[GRAPHIC] [TIFF OMITTED] T1365.015

    Mr. Kucinich. The questions we are talking about dealing 
with border security also involve cases which reflect major 
deficiencies on the part of our government's investigation of 
custom and border violations. I want to cite two quickly.
    First of all, how U.S. Customs handles an investigation of 
slave labor allegations regarding a product that we import into 
the United States. And as you know, importing products made 
with slave labor has been illegal since 1930. Allegations of 
slave labor used in the production of pig iron in the state of 
Brazil came out in the summer of 2002 as the United States 
reportedly imports 92 percent of the pig iron produced in 
Brazil, most of which is produced in Podda. It is probable that 
this importation violates section 1307 of the U.S. Tariff Act 
of 1930. I sent a letter to U.S. Customs asking which actions 
have been taken in response to this violation of law. I got a 
response back that says that the Amazon basin in Brazil is in a 
remote area where the majority of the roads are only accessible 
by way of four-wheel drive vehicles. They cannot investigate 
it, but for some reason, pig iron can get carried out but our 
investigators cannot get in.
    Finally, there is another case that involves the presence 
of an international terrorist, Luis Posada Correas, who has 
been in the United States, it is my understanding, for 6 weeks. 
He crossed the border illegally. He has arrived clandestinely 
in our country, and apparently in violation of many national 
laws. I would just like to point that out as you get into the 
hearing to talk about the work of U.S. Customs and the Border 
Patrol.
    Chairman Tom Davis. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.018
    
    [GRAPHIC] [TIFF OMITTED] T1365.016
    
    [GRAPHIC] [TIFF OMITTED] T1365.017
    
    [GRAPHIC] [TIFF OMITTED] T1365.019
    
    [GRAPHIC] [TIFF OMITTED] T1365.020
    
    Chairman Tom Davis. All opening statements by Members will 
be included for the record.
    Our first witness today is the Honorable Robert C. Bonner, 
Commissioner, U.S. Customs and Border Protection, U.S. 
Department of Homeland Security.
    It is our policy that all witnesses be sworn.
    [Witness sworn.]
    Chairman Tom Davis. Your entire testimony is part of the 
record.

 STATEMENT OF ROBERT C. BONNER, COMMISSIONER, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Robert Bonner. Thank you, Mr. Chairman and 
distinguished members of the committee. I would like to make a 
brief opening statement and frame some of the issues that I see 
with respect to our border patrol security situation.
    Let me begin by saying, as I think all of you know, this is 
National Police Memorial Week, and I came this morning from CBP 
headquarters where we honored the sacrifice of CBP Border 
Patrol agents, three of whom were killed in the line of duty 
this past year. It is always a poignant time of the year when 
we pause to acknowledge the contributions and sacrifices of our 
law enforcement officers and their families, the sacrifices 
they make to protection our Nation and protect our borders.
    Mr. Chairman, I am pleased to appear before the committee 
today to discuss U.S. Customs and border protection, and in 
particular, what it is doing to better secure our borders. I 
mean, all of our ports of entry, and between those official 
ports of entry or official crossing points along the Mexican 
and the Canadian border.
    In the post September 11 era and the era of global 
terrorism, securing our borders is not only a matter of 
national sovereignty, it is a matter of national security.
    As the chairman suggested, in the age of global terrorism, 
control of our borders is essential.
    A little over 2 years, the personnel and all of the front 
line border agencies of the U.S. Government were unified into 
one agency and that is U.S. Customs and border protection, one 
of the principal operational agencies of the Department of 
Homeland Security. With 42,000 employees, it represents nearly 
one-fourth of all personnel of the Department of Homeland 
Security. CBP's priority mission is homeland security, of 
course, and specifically that means keeping terrorist and 
terrorist weapons from getting into the United States, but we 
also continue to perform some traditional missions, and that 
includes everything from interdicting and seizing illegal drugs 
to arresting and apprehending smugglers of drugs and people, to 
apprehending people that are illegally entering the United 
States.
    As the Nation's single front line border agency, for the 
first time in our Nation's history, we are able to develop and 
implement a comprehensive national strategy for securing our 
borders between our ports of entry. As part of that overall 
strategy, you have asked me to talk about a part of it, which 
is the new national border control strategy for controlling our 
borders. That strategy deals with between our ports of entry.
    Let me say this, the strategic goal of the National Border 
Patrol strategy, and it has never had one before it came over 
to CBP, the strategic goal is nothing less than operational 
control of our borders.
    The new Border Patrol strategy does build upon prior Border 
Patrol initiatives, everything from Operation Gatekeeper and 
Hold the Line, but it goes beyond those concepts. It focuses on 
five key objectives. One is centralized command over all of the 
20 sectors of the Border Patrol, something that did not exist 
when the Border Patrol was part of the INS.
    Second, it focuses on the need for technology to better 
detect all illegal intrusions across our borders.
    Third, it talks about the capability of the Border Patrol 
to rapidly respond to those intrusions.
    Fourth, it contemplates a defensive strategy that is 
lateral to interior check points as well as transit areas 
coming away from our border.
    And five, and this is probably the most important, adequate 
numbers of well-trained Border Patrol agents.
    Recognizing the old adage that the chain is as strong as 
its weakest link, we have strengthened security at our ports of 
entry, our official crossings, and we are increasing our 
efforts between those ports of entry, including at the very 
weakest parts of our land border, and that is the Arizona 
border with Mexico. It is the weakest because last year, 52 
percent of all of the 1.1 million illegal aliens apprehended by 
the Border Patrol crossing into our country were apprehended in 
Arizona, crossing the Arizona border. That is close to 600,000 
illegal aliens apprehended in Arizona alone.
    Arizona has three primary corridors that illegal aliens and 
smugglers of drugs use to get either drugs or people into the 
United States. One is the west desert corridor, the other is 
the Nogales-Douglas corridor, and the other is the Yuma 
corridor. The first phase of the Arizona Border Control 
Initiative was focused primarily on the west desert corridor.
    We did achieve some of our objectives last year with the 
Arizona Border Control Initiative in terms of increased numbers 
of arrests, reduced numbers of people illegally entering 
through that corridor, reduced numbers of deaths in the desert, 
decreased crime, and decreased damage to the environment, but 
we did not achieve operational control.
    Two months ago on March 25, we launched the second phase of 
the Arizona Border Control Initiative, which is a full court 
press to reduce the number of illegal aliens crossing our 
border into Arizona and to reduce the illegal activity at our 
borders, concentrating first in the west desert corridor. Our 
aim is to gain operational control of the Arizona border, and 
to do that by putting more boots on the ground and that is 
directing the deployment of 534 more Border Patrol agents to 
the Arizona sectors. We immediately deployed in March 200 
additional Border Patrol agents on a TDY basis, so we have more 
boots on the ground.
    We have doubled the number of aircraft operating in Arizona 
for air surveillance purposes and rapid air response. We have 
interior check points along the highway and are interdicting 
laterally from those check points. Border Patrol disrupt units 
are working with ICE investigators to disrupt the organizations 
that illegally smuggle aliens into the United States, and we 
are using the Border Patrol's new centralized command structure 
to rapidly deploy additional resources when and where they are 
needed to address the hottest and weakest spots on that border.
    Just 2 months into the second phase, we are seeing results. 
Just last month in Arizona, the Border Patrol arrested 79,000 
illegal aliens crossing the border in Arizona. Including about 
2,000 of whom were nationalities other than Mexican. Yesterday 
alone in Arizona, the Border Patrol apprehended 1,670 illegal 
aliens. Just a brief comment on the Minutemen Project and the 
topic that will be addressed certainly by your next panel.
    Last month, citizen volunteers stationed themselves along a 
23-mile stretch of the Arizona border to help stop illegal 
aliens crossing our border from Mexico. The Minutemen brought 
significant media attention to an extremely important national 
issue. The actions of the Minutemen were well motivated, and we 
all know, saying that, that law enforcement is a very dangerous 
profession and that border environment is a dangerous 
environment. We are grateful there were incidents. There were 
no acts of vigilantism, and that is a tribute to the organizers 
of the Minutemen Project.
    Mr. Chairman, we are not going to control our borders 
overnight, and it is not easy. I believe we have a sound 
strategy, a good operational plan, and with sustained 
enforcement efforts and sufficient resources, we can and will 
gain control of our Nation's borders. This is not an impossible 
task. It is doable and we need to do it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Robert C. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.091
    
    [GRAPHIC] [TIFF OMITTED] T1365.092
    
    [GRAPHIC] [TIFF OMITTED] T1365.093
    
    [GRAPHIC] [TIFF OMITTED] T1365.094
    
    [GRAPHIC] [TIFF OMITTED] T1365.095
    
    [GRAPHIC] [TIFF OMITTED] T1365.096
    
    [GRAPHIC] [TIFF OMITTED] T1365.097
    
    [GRAPHIC] [TIFF OMITTED] T1365.098
    
    [GRAPHIC] [TIFF OMITTED] T1365.099
    
    [GRAPHIC] [TIFF OMITTED] T1365.100
    
    [GRAPHIC] [TIFF OMITTED] T1365.101
    
    [GRAPHIC] [TIFF OMITTED] T1365.102
    
    Chairman Tom Davis. Commissioner Bonner, you said the 
Border Patrol will need more agents, but you have not said how 
many more, in addition to what I think is currently about 
11,000. In testimony before the 9/11 Commission, former INS 
Commissioner Ziglar testified that 31,700 Border Patrol agents 
were needed to carry out enforcement. Do you have an opinion on 
his estimate?
    Mr. Robert Bonner. I have not had a chance to talk to Jim 
Ziglar to hear how he arrived at that figure.
    But let me say, we need more Border Patrol agents. There is 
no question about that.
    Chairman Tom Davis. Would you say a lot more?
    Mr. Robert Bonner. Certainly we are talking about two 
things. It is not all about agents. It is also about getting 
the optimal technology to detect interdictions and getting 
those agents and having the capability of rapid response to 
intrusions across our borders. If we had optimal technology, we 
are certainly talking about an increase in the numbers of 
agents. It is, I would say, in the thousands. I cannot go 
further. We worked up a number. I am addressing that through 
the appropriate channels through the Department of Homeland 
Security. We do have an idea based upon the optimal level of 
detection technology the number that is needed, but I don't 
feel comfortable at this point given the need to further brief 
and discuss this with Secretary Chertoff, who is very much 
aware and on top of this issue in the very short time he has 
been at the Department of Homeland Security as Secretary.
    Chairman Tom Davis. Mr. Ruppersberger talked about the 
neighbors on patrol in his opening statement that they used in 
Baltimore County. In my county, we have neighborhood watch 
where citizens can volunteer. They work with the police. They 
are not working contrary to them. It is an adjunct to the 
police, adding more eyes and ears. They do not have arresting 
power. They are not posse comitatus. Do you have any role for 
that, where you have people coming forward and volunteering? 
Have we thought about utilizing that in any way, shape or form?
    Mr. Robert Bonner. Yes. The Border Patrol, and we continue 
to value the support of citizens. These are the eyes and ears 
of the Border Patrol along the border. This is particularly 
important in what I would call the thinly or more rural parts 
of the border which are the ones that are the most difficult to 
control. The Border Patrol has made significant progress in 
gaining greater control, not perfect control. These tend to be 
areas along some of the larger urban areas.
    In a nutshell, the Border Patrol, Customs and Border 
Protection, we value citizen help. We value having citizens 
that are eyes and ears to tell us when there is suspicious 
activity. The question would be is there a way to let us say 
better and more effectively harness the citizen volunteers?
    That is something that we are looking at. I don't have the 
answer, but we want any kind of force multiplier we can get. 
But the border is a dangerous area. We want to be able to 
provide at least some insights, possibly even training to any 
citizens that are volunteering to go down.
    Chairman Tom Davis. We use volunteers for fire service and 
a lot of other public service safety areas as well. We are 
going to hear from people who have been there. It is important 
that you channel them appropriately. It sounds like you are 
thinking this through.
    Mr. Robert Bonner. We think it is worthy to consider how 
this might be done.
    Chairman Tom Davis. I am concerned that we are not using 
the best capability in our UAV technology to protect the 
southwest border. We should not be using drones that lack the 
satellite capability to fly beyond the line of sight missions 
required to reach the most remote areas, such as the west 
desert areas of Arizona. Can you give us, make available to the 
committee the results from the UAV tests from the southwest 
border?
    Mr. Robert Bonner. I am sure that we can work with the 
committee on that subject. We deployed a UAV last year on a 
pilot basis in Arizona. By the way, the jury is out on this a 
bit. We think that the UAV or something equivalent to the UAV 
could play an important role in terms of continuous aerial 
border surveillance, which would allow us to take Border Patrol 
agents doing surveillance duty on a static deployment basis and 
allow them to be part of a rapid response capability to detect 
and move--not detect, but to move against detected 
apprehension. We are moving forward on essentially----
    Chairman Tom Davis. Do you have a time line for that?
    Mr. Robert Bonner. In terms of talking to our procurement 
people or getting something else in place, and by the way, I am 
as anxious to move forward on this as anybody here, but I would 
say right now we are hopeful, just given the procurement 
process, to have something selected, if you will, by around 
August. There could be some slippage in that. But that is how 
long my procurement people say it is going to take. We would 
hope to have something deployed by September, something up in 
the air. That is our goal.
    Chairman Tom Davis. Thank you. Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Bonner, are you familiar with correspondence that you 
received relative to slave labor occurring in the power state 
in Brazil from my office?
    Mr. Robert Bonner. I am not as I sit here, Mr. Kucinich. I 
heard you talk about the situation in Brazil. I am not 
specifically familiar with the details of the potential use of 
slave labor for the manufacture of pig iron in Brazil.
    Mr. Kucinich. I sent two letters, and I am going to ask 
staff to provide copies to Mr. Bonner, one is dated September 
24, 2004, and one dated May 4, 2005. In response to the letter 
in September, I got a reply from the U.S. Immigration and 
Customs Enforcement, which among other things, said that the 
Amazon basins in Brazil, where the majority of these violations 
take place, the roads are only accessible by four-wheel-drive 
vehicles.
    I am calling this to your attention, Mr. Bonner, because 
there have been widespread reports about people working as 
slave laborers in Brazil, particularly with respect to the 
power region. Reports have surfaced that indicate that the 
United States is directly benefiting from the proceeds of 
slavery, that 92 percent of the pig iron produced in the forest 
is exported to U.S. mills, and much of the smelting is done by 
forced labor which contravenes section 1307 of the U.S. tariff 
act of 1930. You are familiar with 1307.
    Mr. Robert Bonner. I am familiar with the law on that 
subject, yes, sir.
    Mr. Kucinich. Information which has been brought forward 
suggests there is a violation that has occurred. Is Customs 
looking the other way at slave labor in Brazil because it is 
benefiting U.S. interests?
    Mr. Robert Bonner. It is not, but you use the word 
``Customs.'' There is no U.S. Customs any more. The DHS 
reorganization, they took essentially the investigators that 
had been in Customs and put them in an entity called ICE. That 
is why it was not me that responded to you.
    Mr. Kucinich. ICE has enforcement?
    Mr. Robert Bonner. They have the investigators, and the 
overseas attaches.
    Mr. Kucinich. Is enforcement on ICE?
    Mr. Robert Bonner. It is a shared responsibility. I have 
part of the responsibility here, but if you are talking about 
investigating overseas, it is totally ICE. I have no attaches 
in Brazil. ICE does. I have no attaches any place in the world. 
The investigative responsibility----
    Mr. Kucinich. So you are saying you have no responsibility 
for these matters whatsoever?
    Mr. Robert Bonner. We do have responsibility. When ICE 
tells us there is a shipment of pig iron that is as a result of 
slave labor, we seize it. We depend upon getting information 
from ICE to enforce the laws that are made against products 
made with child labor. We do that and we are serious about 
doing it, but we are dependent on getting that information from 
some investigative agency, and that is ICE principally.
    Mr. Kucinich. Are you familiar with whether any materials, 
pig iron from the power region of Brazil, have ever been 
interdicted, any shipments ever blocked by Customs?
    Mr. Robert Bonner. Customs and Border Protection now at the 
ports of entry. As I sit here, no.
    Mr. Kucinich. Do you have any interest in this at all?
    Mr. Robert Bonner. Yes, I have an interest. I will followup 
with ICE and Mr. Garcia, who is the head of Immigration and 
Customs Enforcement, who has the investigators. I will 
personally followup with him for you.
    Mr. Kucinich. I would like to do that, because according to 
the information I have, in this one particular area, 534 rural 
workers were reported as killed in the last 30 years until 
2001. That is 26 times the national homicide average.
    U.S. Customs, when they are asked to comment on a story 
about a guardian, say, there was no one familiar with the 
problem available to comment. I trust as a result of this 
hearing, you will become familiar with the problem enough to 
give us a report?
    Mr. Robert Bonner. I will be happy to. But I want to say on 
March 1, 2003, U.S. Customs was split. The investigators were 
split out of Customs into ICE.
    Mr. Kucinich. To the extent that you can be responsible for 
any of this, will you?
    Mr. Robert Bonner. Absolutely. I will followup with you on 
this.
    Mr. Kucinich. Thank you. The next question is with respect 
to Luis Posada Correas. Are you familiar with him being in this 
country?
    Mr. Robert Bonner. I have heard that he is in this country.
    Mr. Kucinich. Is he in this country illegally?
    Mr. Robert Bonner. I am not sure we know for sure how he 
entered the United States.
    Mr. Kucinich. Are you interested in how he entered?
    Mr. Robert Bonner. Of course.
    Mr. Kucinich. Will you find out whether he is in this 
country illegally?
    Mr. Robert Bonner. I said I will undertake to see if I can 
get that information.
    Mr. Kucinich. Thank you.
    Chairman Tom Davis. Mr. Souder.
    Mr. Souder. First, let me thank the gentleman from Ohio for 
pointing out the almost silliness of separating ICE from the 
border, because it is ridiculous to have one group watching the 
border but not be able to followup. I hope as they reorganize 
that Mr. Bonner, who knows full well these challenges, will be 
given more authority to figure out how this interrelates. We 
even have the air and marine divisions in Colombia and inside, 
and this clearly, and I know the Department is looking at it 
right now, and they need to look at it aggressively.
    I have a couple of things in the line of questioning. Two 
basic parts. One directly relates to the Arizona surge. I would 
like some idea of how many additional people came through Texas 
and California while we were moving assets from all over the 
country for an Arizona surge. I was in Texas at the time, and 
saw assets moved. I was in California at the time and saw 
assets moved. To some degree you even had to move assets to 
watch the Minutemen.
    To some degree, while it has the great advantage of 
focusing attention on the problem, it was relatively 
counterproductive if what we do, and particularly, when these 
things are announced, they just moved to another area. It is 
not like we were fixing either with the surge or with the 
Minutemen Project. I held hearings at Sells. I saw hundreds 
myself moving through. Unless we in Congress deal with a 
reasonable immigration policy and start to address this, your 
agents are overwhelmed. It is impossible to picket fence this 
whole border. We have to get the coyotes and the networks, and 
not overreact to every media story.
    We held hearings in Douglas and Nogales. I held hearings in 
California, multiple places on the Texas border. This problem 
is not just Arizona, it is across the board and we have to have 
a comprehensive backup network. We have to follow as they move 
in and see where they are hitting the road and networking like 
it is a trucking company. We need to make sure that the drugs 
and terrorist networks are inside that.
    In my original statement, and you responded by saying you 
had a Border Patrol strategy. My question was broader. Is 
Homeland Security going to coordinate, FBI, DEA? Are you going 
to get the Coast Guard involved? Are you going to have a 
comprehensive border strategy?
    Second, you did not mention information sharing. We are 
proliferating the intelligence. Each agency wants its sub area 
of intelligence. How is this going to be coordinated so we do 
not have everybody in 10 meetings figuring out how to talk to 
each other? How can we coordinate this?
    Third, NORTHCOM is looking at getting this in a big way. 
One of the fundamental questions here is: Is Department of 
Homeland Security going to get organized enough to merge the 
border and the ICE people and get this coordinated, or do we 
have to move it over to the Department of Defense and NORTHCOM, 
and have them be the coordinator of intelligence and use the 
Guard and so on. I appreciate all of the time you have given me 
to talk with you about this. But I want to get on the record 
some of your thoughts as well.
    Mr. Robert Bonner. You have raised some extremely broad 
issues, Mr. Souder. First of all, there is a broad strategy for 
the front line border that is not just the Border Patrol 
strategy. It also includes all of our official crossing points, 
so we do have a comprehensive strategy to keep things that we 
do not want in our country out. Whether that is illegal drugs 
or potential terrorist operatives. Everything we do and have 
done to improve our posture on the border to be able to better 
perform our homeland security mission, keeping terrorists and 
terrorist weapons out, improves our ability to keep illegal 
drugs and drug smugglers out as well.
    That said, you touched upon an issue of great importance 
and that is, how do we get the best information to our front 
line border agency to allow them to respond in the best and 
most effective way. You have been to the border.
    We seized 2.1 million pounds of illegal drugs on our 
border. We are paying attention to this issue. On the other 
hand, 99 percent of those seizures were cold hits. Those were 
as a result of hard work by front line CBP officers at the 
ports of entry, across the southwest border mainly, JFK and 
Miami, but mainly the southwest border, and Border Patrol 
agents between the ports of entry.
    We could do better if we could organize our intelligence 
better to get intelligence and information to our front line 
Border Patrol personnel, CBP, so we are interdicting more of 
those drugs based upon intelligence like we are doing right now 
in the east pack, like we are doing right now with air and 
marine assets of CBP in the source and transit zone because 
most of those seizures are intelligence QTs. So we have to do 
this at the border. It means getting DEA and ICE. It means the 
right people at the table that is providing this feedback 
information to our front line border agency.
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. I thank you, Mr. Chairman, for calling this 
important hearing on border security.
    The tragic events of September 11 forced our country to 
acknowledge that border security must address more than just 
the significant challenges of drug trafficking and illegal 
immigration, but also the savagery of terrorism.
    This hard-learned lesson demands that we effectively secure 
our borders. At the same time, we must hold fast to the values 
of hope, diversity and openness that make America great by 
welcoming legal immigrants and visitors who enrich our culture 
while upholding the integrity of our laws.
    In the post September 11 world, maintaining a robust, 
multifaceted and responsive border security strategy is 
essential to our national security. If there be any doubt of 
its necessity, bear in mind that the Department of Homeland 
Security's recent testimony that al Qaeda is considering 
exploiting our southwest border vulnerabilities as means of 
entry into the United States.
    Unfortunately, I have serious questions about the 
government's ability to secure our borders. I am deeply 
troubled by a report issued during the 108th Congress of the 
minority staff of the select committee on homeland security 
that included the following: The southern border is porous and 
more staffing is needed at the southern border. Modern 
technology must be deployed on the entire southern border. 
Border officials are not getting the intelligence they need to 
perform their counterterrorism mission. It went on to say the 
Department of Homeland Security detention and removal operation 
is failing. The administration has failed, it said, to develop 
a comprehensive, long-term border strategy.
    The substantive weakness in our border system also impacts 
our ability to interdict drugs from foreign nations. With that 
said, nearly all of the cocaine consumed in the United States 
and most of the heroin consumed on the East Coast originates in 
Colombia. As ranking minority member of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources, and as a 
Congressman who represents Baltimore and Maryland, I have seen 
firsthand communities from urban centers to the heartland in 
the grips of death and devastation due to drugs. Terrorism 
fueled by drugs can be just as destructive as the terrorism 
driven by religious extremism. President Bush stated during his 
2005 State of the Union address, ``It is time for an 
immigration policy that tells us who is entering and leaving 
our country and that closes the border to drug dealers and 
terrorists.''
    While these words are comforting, we must recognize that 
words alone are not enough to stop drug dealers and terrorists 
from harming the communities we have sworn to protect. I am 
deeply troubled that the President's rhetoric on border 
security does not correspond with the priorities in his fiscal 
year 2006 budget. To begin, the President proposed to cut 
funding for important homeland security grants to States at a 
time of unprecedented threats to the homeland. Moreover, the 
President proposed funding for only 210 additional Border 
Patrol agents even though 2,000 additional agents were 
authorized.
    I am no less troubled that the President's budget proposes 
to withdraw significant levels of Federal support for State and 
local drug enforcement. The President proposes to decimate the 
high intensity drug trafficking areas programs by eliminating 
more than half its budget and moving it to the Department of 
Justice. At the same time, he proposes to eviscerate funding 
for the COPS program and to entirely eliminate funding for the 
burn grants. These programs provide a critical line of defense 
in stopping drugs from flooding our streets once they have 
entered our Nation.
    In the end, the American people expect more than 
inspirational speeches. They expect us to effectively secure 
our border. Sadly, the administration's commitment in their 
budget leaves much to be desired if we are to achieve this 
worthwhile end. I look forward to this testimony today.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1365.021

[GRAPHIC] [TIFF OMITTED] T1365.022

[GRAPHIC] [TIFF OMITTED] T1365.023

[GRAPHIC] [TIFF OMITTED] T1365.024

[GRAPHIC] [TIFF OMITTED] T1365.025

    Chairman Tom Davis. Mr. Gutknecht.
    Mr. Gutknecht. Mr. Chairman, I didn't really have a 
question, but I want to attach myself to the comments just 
made.
    I think there is a growing feeling that we do not take this 
issue very seriously. I am hopeful in the coming months that we 
can all be proved wrong on that, but there is growing 
suspicion. Let me give one example.
    We have a serious problem with methamphetamines throughout 
much of rural America, although I must say that one of my 
sheriffs told me she was convinced that at least a majority and 
perhaps as much as 70 to 80 percent of the meth was coming in 
via illegal aliens through Mexico. And to confirm her point, I 
think a few weeks later there were five illegal aliens driving 
on Interstate 35 north of Albert Lea, Minnesota, and they had a 
trunk load of meth. So this nagging suspicion sort of gets 
reconfirmed that we do not take this whole issue as seriously 
as we should. I think that is a bipartisan concern. I think it 
is a concern of those who live in the big cities, and it is a 
concern of those of us who represent what some might describe 
as more rural districts. I don't know if you want to respond to 
that.
    Mr. Robert Bonner. I would like to respond.
    I can tell Members that we, Customs and Border Protection, 
part of the Department of Homeland Security, do take the issue 
seriously in terms of the ability of people or drugs to get 
into the United States. It is a difficult issue.
    I served in the first Bush administration as head of the 
DEA. I have seen the ravages of meth and meth labs and the 
ability to move meth around. The Mexican trafficking 
organizations get involved in essentially meth production and 
the like. I work very closely with Karen Tandy, who is now the 
administrator of DEA on these issues. We do take it seriously, 
and we take seriously the control and security of our border.
    As we were saying earlier, I think as a country, we always 
had a duty and obligation as the Federal Government to control 
and secure our borders. But in the post September 11 era, it is 
absolutely essential that we do so because there is the 
potential for terrorist penetration. We have to do this. We are 
doing everything we can with our resources to be as effective 
as possible in interdicting the flow of illegal drugs and 
people moving into the United States.
    Mr. Gutknecht. Thank you.
    Chairman Tom Davis. Ms. Sanchez.
    Ms. Sanchez. Commissioner Bonner, both President Bush and 
representatives from the U.S. Border Patrol have been critical 
of the Minutemen as interfering with law enforcement efforts, 
posing a danger to citizens, to legal immigrants and 
themselves. In fact, President Bush has described the Minutemen 
as vigilantes. Would you describe for the committee some of the 
specific instances of Minutemen or similar type citizen patrols 
interfering with Federal Border Patrol efforts?
    Mr. Robert Bonner. Let me say the President's comment I 
think you are referring to was made before the Minutemen even 
arrived in Arizona.
    Ms. Sanchez. So your opinion is they are not vigilantes? 
Are they armed?
    Mr. Robert Bonner. It was in March. I will say this, I was 
concerned about the potential for vigilantism that might take 
place with people coming to Arizona. The reality, and I think 
it is a tribute to the people who organized the Minutemen 
Project, there were no acts of vigilantism.
    Ms. Sanchez. Was there any interference with Federal Border 
Patrol efforts?
    Mr. Robert Bonner. I don't know I would call it 
interference. During the project there were--first of all, 
there were times, I am told that sensors were tripped.
    Ms. Sanchez. What does that do to our limited Federal 
resources when we have citizen patrol groups that are tripping 
sensors?
    Mr. Robert Bonner. Anything that walks or moves can trip a 
sensor.
    Ms. Sanchez. But when they are falsely positively tripping 
sensors, what does that do? Do you not respond when the sensors 
go off?
    Mr. Robert Bonner. I don't think it is a big issue.
    Ms. Sanchez. It is not a big issue that Federal resources 
can be wasted on nonthreats to our national security?
    Mr. Robert Bonner. If a sensor is tripped, we respond to 
it. It may turn out to be something other than a group of 
illegal aliens. That happens. You probably want to take a look 
at the totality of the circumstances here.
    There was some I would say diversion of Border Patrol 
resources to responding to sensors that were tripped. But on 
the other hand, if you look at the totality, first of all, I am 
grateful there were no acts of improper and inappropriate 
incidents during the month that the Minutemen Project held 
forth in that 23 mile area of the border.
    Ms. Sanchez. So you would not discourage these patrols from 
continuing to patrol?
    Mr. Robert Bonner. There is an interesting question about 
how do you do this. I am very concerned about people 
unnecessarily getting hurt or killed.
    And I do know and I visited down in many areas of our 
border, but certainly it's particularly true in various parts 
of the Arizona border, it is very treacherous and it is a very 
dangerous place. Border Patrol agents have and are from time to 
time shot at. Their lives are in danger. So I think this is 
fundamentally the control of the border, patrolling the border. 
Making apprehensions is a law enforcement responsibility, and 
Border Patrol agents should do this job.
    Ms. Sanchez. How would you propose to deter citizens from 
acting as Border Patrol agents and acting perhaps in an 
appropriate manner?
    Mr. Robert Bonner. For one thing as I have indicated 
before, I do depend upon the eyes and ears of citizens. We will 
continue to do that and certainly will encourage that and have 
hotline and tip lines to do that. I'm not quite sure, Ms. 
Sanchez, I'm totally capturing the thrust of your question.
    Ms. Sanchez. I have two last questions and will try to get 
them on the record and have you respond if you will. Are any of 
these folks armed that are out doing these citizen patrols? And 
my last question is are they patrolling the northern border 
where there has been actually specific terrorists that have 
been apprehended at the border?
    Those would be my last two questions. If you could respond 
to them, I would appreciate it.
    Mr. Robert Bonner. I believe, of course, it is legal in 
Arizona to carry a weapon in the open.
    Ms. Sanchez. California, it is not.
    Mr. Robert Bonner. And I believe----
    Chairman Tom Davis. Go ahead and answer the question.
    Mr. Robert Bonner. I believe that some of them had arms. 
And as far as the northern border, look, we have had specific 
intelligence, it's not new, but that al Qaeda has considered, 
has actually contemplated using the southern border and the 
ability to illegally cross our southern border to get terrorist 
operatives into the United States. Both borders are a potential 
threat when it comes to the terrorist issue.
    Chairman Tom Davis. Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman. Commissioner, I have 
a couple of questions and maybe a comment to start. Being from 
Texas and having the longest stretch of border between Mexico 
and Texas, maybe 1,000 miles, is it that long?
    Mr. Robert Bonner. Longer.
    Mr. Marchant. I would say at least 20 percent of my 
constituent mail that I get in Washington is about this subject 
and it is from the time I served in the State legislature till 
now, it just is a straight line. And when we go home and do our 
town hall meetings, really the people don't want to talk about 
Social Security much. They don't want to talk about tax reform 
much. They want to talk about illegal aliens and what is 
happening in our hospitals and our schools, and so it is 
beginning to really hit us as Congressmen back home in a way 
that I know you appreciate, but there is beginning to be a 
pressure on us so that when we hear buzzwords like operational 
control of our borders, we understand that. We respect that 
here in Washington. I can't go back and use a buzzword like 
``control,'' you know, operational control of our borders, 
because the definition of my constituency of operational 
control of our borders is they are not building the new shelter 
in town for the illegal aliens to show up in the morning and 
not get wet because they are building shelters for them. And 
that is the--so what does operational control--what would it 
mean to me living in the suburbs of Dallas if you achieve--if 
the Border Patrol--not you, but if the Border Patrol achieves 
its goal of having operational control? What will it look like?
    Mr. Robert Bonner. Doesn't mean it would be absolutely 
impossible for anybody to cross our border because if we set 
that as a goal it's a goal for a certain failure, but what it 
does mean is a substantially high level of probability that you 
are going to be apprehended if you are illegally entering our 
country.
    Do you know it when you see it? There are areas of the 
border in the El Paso area, in the San Diego County area, not 
all of it by the way, but there are areas of the border where I 
can say and you can say if you go down and look at them that we 
have achieved something, that there is a high level of 
apprehension and it has staunched the flow of illegal aliens 
and potentially anybody else who might be trying to illegally 
enter our country. I am not saying we've got the border under 
control. We don't. We have a long way to go here.
    But I will tell you, I'm from Los Angeles, Ms. Sanchez. And 
I went down to the border many times when I was U.S. attorney 
in L.A. and I saw at sundown the illegal aliens gathered on the 
hillsides waiting for the sun to do down and they just rushed 
across the border. I mean it was totally, flat out of control. 
As a result of efforts of the Border Patrol, some tactical 
infrastructure, increased numbers of Border Patrol agents, 
better technology, lighting and other things, most of that 
border area is under a reasonable degree of control. Not all of 
it. Frankly, we haven't been able to complete a middle section 
of the fence from--about 3\1/2\ miles to the ocean. You will 
know it when you see it.
    And how else will you know it? Crime goes down. The 
environmental damage goes down in terms of people illegally 
crossing and leaving their junk and debris behind. You know it 
when you see it. And we will know as we get greater control of 
our border.
    Again, we're doing everything we can within our current 
resources to achieve greater control of our border and we are 
addressing and we are doing it with greater mobility. Part of 
the strategy, national border patrol strategy, greater mobility 
than we had before to move more quickly to where and when the 
Border Patrol needs to be to show up in the weakest areas. So 
we've got to--and we are doing our best with people and 
technology and that's what it means.
    Mr. Marchant. The House is trying to assist in that in some 
of the legislation we have been passing lately, and we have 
been trying to get that word back. Can I ask just one more 
operational question?
    Chairman Tom Davis. The gentleman's time has expired. The 
gentleman from Maryland, Mr. Ruppersberger.
    Mr. Ruppersberger. Commissioner Bonner, two areas I would 
like to get into, I think Congressman Souder got into this, he 
asked about was there a program for the different agencies to 
work together and you mentioned it and didn't get into detail.
    Also the issue of information sharing. From a perspective--
we have serious problems on our border. You used Mexico as an 
example. We have the majority of drugs that come to the United 
States that come through Mexico. I'm sure that the same bad 
guys that are helping to get illegal immigrants through the 
border are the same bad guys that are connected to drugs and 
the same bad guys that are probably going to be working with al 
Qaeda to get people into our country to deal with the things 
that we don't want to deal with, and that's terrorism. In order 
for us to take this issue seriously--and I'm talking more from 
a security point of view and not the issue of immigration, 
there are a lot of issues there, we need to have a joint group 
of agencies working together the same way we do in Iraq and 
Afghanistan. We need to have not only your organization but 
FBI, DEA, NSA, CIA all working and focusing on that border, 
because if you look at the problems we have with drugs, drugs 
is probably--not probably, it is a more serious problem than 
terrorism because drugs affects everyone in the world; 85 
percent of all our violent crime is drug related.
    My question to you, I want you to get into the specifics--
do you have a comprehensive program working with the different 
Federal agencies to help you to get you intelligence to make 
sure we are focusing on the bad guys that have been so 
effective in getting people through our borders?
    Mr. Robert Bonner. We have actually a very good method, and 
it has certainly vastly improved, of getting intelligence with 
respect to the potential terrorist threat, and that is through 
the Department of Homeland Security working with the 
Intelligence Community and all aspects of the Intelligence 
Community and the FBI. So we have that, and that would apply 
not just to our border with Mexico or our border with Canada, 
all of our ports of entry, people coming into the United States 
from abroad and through our airports and so forth. I think 
that's working reasonably well and we have made tremendous 
progress.
    Mr. Ruppersberger. I would like to get into detail. You can 
say you are working together, but are you sharing office space? 
Are you getting information? Are the people collocated in the 
same area, because it's about results and accountability of the 
performance. And I'm not sure whether or not that performance 
is there and I'm not throwing fault, I'm talking more about 
giving the resources to you.
    Mr. Robert Bonner. I understand what you're saying. This is 
a very important point and that is when you are talking about 
the operational effort at the border. You have front-line 
people, and that's the Border Patrol, and at the ports of 
entry. That is CBP officers. FBI agents don't do interdiction 
at the border. DEA agents don't do interdiction at the border. 
What you have is a relationship between the investigative 
agencies, which are DEA and FBI and ICE now, and the front line 
border personnel, so that you have a feedback loop of 
information. So that if there is a drug trafficker--and by the 
way, this happens everyday, and it is happening right now as we 
speak. We interdict and intercept illegal drugs at El Paso. We 
call in one of these investigative agencies. Usually would be 
ICE. And it needs to--if there is an investigative potential, 
it runs with it or it's DEA, it runs with that. And when it 
brings down that organization, how do the drugs get across? 
What is the modus operandi for getting across? It's that 
feedback loop of information that I was referring to in Mr. 
Souder's question. It isn't putting FBI agents or DEA agents or 
even ICE agents at the border. We have interdicters at the 
border and you need the sharing and flow of information.
    Mr. Ruppersberger. My light came on and I want to ask you 
this question. Asa Hutchinson, when he was the Deputy Secretary 
of Homeland Security, made a comment that we did not have the 
resources on the border and he never thought we would solve the 
problem unless Congress and the public of the United States is 
willing to give the money and the resources. He made that 
comment. Do you agree with that comment? And if you do, what 
are the resources that you think you need to do the job?
    I told you before I put a bill in to try to get 2,000 more 
agents on the ground for the next 5 years, which is 10,000. 
That bill hasn't gone anywhere yet, but as a result of his 
comments, do you agree with them, No. 1? And if you do or 
don't, what resources do you need?
    Mr. Robert Bonner. We need more Border Patrol agents.
    Mr. Ruppersberger. How many more?
    Mr. Robert Bonner. I would say that we have--you know the 
President has added about 1,500 Border Patrol agents in the 
last several years. Just very quickly, it's not all agents, it 
is technology. If you are just talking about agents at the 
border, well, I probably agree with Mr. Ziglar's number and 
that may be south of what we need. This is the American Shield 
Initiative as part of the new border patrol strategy with the 
right number of agents. But even so, we are going to need more 
Border Patrol agents.
    Chairman Tom Davis. Gentleman's time has expired. You have 
5 more minutes and you have to meet the Secretary.
    Mr. McHenry, you are next.
    Mr. McHenry. Thank you, Mr. Chairman, and I appreciate the 
Commissioner being here and I only have 5 minutes. This will 
work out nicely for you. I had a question. There's Phase 2 of 
the Arizona Border Patrol Initiative that calls for 200 boots 
on the ground and increased 42 aircraft. Where are these 
resources coming from? Are they being taken from other areas?
    Mr. Robert Bonner. In essence, the 200 new Border Patrol 
agents are not new Border Patrol agents. The 200 Border Patrol 
agents that I directed be put into Arizona on top of a base of 
about 2,200 came principally from the sectors in California and 
Texas. Now I didn't move all of the 11,000 Border Patrol agents 
in Arizona, because I don't want to detract or degrade the 
ability to maintain the degree of control we are maintaining in 
California and Texas, and I'm not saying that degree of control 
is perfect, but we have to address the weakest spot in our 
border, while maintaining other sections.
    Mr. McHenry. California and Texas, where are the aircrafts 
coming from?
    Mr. Robert Bonner. Essentially the same locations. I'm 
generalizing. But the aircrafts are highly mobile assets, as 
you know, and so we double from about 19 to 42 aircrafts that 
are doing aerial surveillance in response in the area. By and 
large, they came mainly from California and they are 
temporarily there. When we get control, which I hope we do, 
they'll return. We haven't permanentized those assets.
    Mr. McHenry. If you could provide me with that information, 
that would be a great help where the 200 agents came from, and 
where the aircraft came from, because it seems like we are 
neglecting areas in order to focus on narrow areas. But one of 
the more interesting things that I would like to hear from you 
is about Border Safety Initiative. If you could explain to the 
panel in essence what you all are thinking by doing this?
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T1365.026

[GRAPHIC] [TIFF OMITTED] T1365.027

[GRAPHIC] [TIFF OMITTED] T1365.028

    Mr. Robert Bonner. First of all, we're not neglecting 
areas. What you are doing is you are operating smartly. We're 
considering the entirety of our southern border in this case 
and saying what do we need to do? Are we going to apply 
resources to gain, essentially, control of our areas and to do 
that as wisely and quickly and as rapidly as possible.
    So assets--it is a national border and it is a Federal 
issue. On the Border Safety Initiative, I am not quite sure 
where your question is on that.
    Mr. McHenry. Explain it to us. As I understand it, instead 
of actually using moneys appropriated to defend our border, we 
are actually providing water, for instance, in certain areas of 
the desert for these folks that are coming across the border, 
which I think is really just quite frankly bizarre that we are 
actually encouraging people to come in and intrude on our 
borders by giving them the resources to do it.
    Mr. Robert Bonner. We don't provide that.
    Mr. McHenry. You don't provide water?
    Mr. Robert Bonner. No, we don't. We put stations in so 
illegal aliens who are in great distress can call us and we 
apprehend them. When we find them and they're dehydrated and 
almost dead in the desert, we give them water, but we don't put 
water out there. Those are citizen groups who are doing that 
who no doubt are altruistically motivated to the issue.
    But on the other hand, you know, we have--we do have a 
Border Safety Initiative and have been working with the Mexican 
Government. The way to prevent deaths in the desert is to 
control our border, and that's what we are trying to do. The 
more we control our border, the fewer people are going to die 
in the desert. It has a safety net. And it will--to the extent 
we can be more successful, it will prevent people from crossing 
the border and fewer people are going to die crossing.
    Mr. McHenry. If I may followup.
    Mr. Robert Bonner. That is my safety initiative.
    Mr. McHenry. I know it's in cooperation with the Mexican 
Government, and I think it's been highlighted in recent news 
accounts, the fact that the Mexican Government is providing a 
booklet on the safest way to cross the border. Is that part of 
the Border Safety Initiative?
    Mr. Robert Bonner. No, it's not, and the Mexican Government 
is--there was a guide or a booklet that was put out, it seems 
to me it was 4, 5 months ago, and I believe it was 
inappropriate. I mean it had a lot of information in it but it 
tended to encourage people to illegally enter the United 
States. And I believe that booklet has been withdrawn by the 
Mexican Government. That's my information.
    Chairman Tom Davis. We will try to get--I know you have to 
go in just a minute. Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much. I would like to ask 
the Commissioner if he has yet solved the issue that I brought 
to your attention last year and that is that the Customs people 
still have conflicting badges with their IDs. I forget whether 
it is the badge or the ID still says Treasury Department, which 
is what Customs used to be under. This may be a small issue, 
and I got back a letter that it's a good thing we didn't have 
this hearing last year or I would still be angry because of the 
letter I got back. It was a ``don't worry, be happy'' letter. 
Some smart attorney is going to get somebody off because of 
this conflict. And I understand it still has not yet been 
resolved. That's question No. 1.
    Question No. 2, or statement No. 2, I represent Florida and 
I can just tell you that at any given time, and I'm sure my 
colleagues here will agree, our people back in the district 
office handling immigration have upwards of 150 cases of people 
in our district trying to have family members come in legally 
or that they are trying to extend their visit here legally. 
They're trying to do it legally. And the big joke is, no, I'm 
sorry, you cannot become a citizen. And I have had so many of 
them say to me, I'll go down to the Mexican border. The 
frustration is the amount of time it takes to go through 
immigration, the legal process. People are trying very hard to 
do what's right and abide by the law so they're not illegal. 
And one of the last things is that I understand that overtime 
in the agency is being sucked up, and let me use that word in 
quotes, sucked up by administrators and that the people 
actually on the ground at the border, at the airports, at the 
seaports who do the job are not getting the overtime. It's 
being sucked up, and I'm putting that in quotes, by the 
administrators.
    And the last question, without any restrictions by the 
administration, how many more border patrol would you really 
have requested? I didn't hear a hard and fast number there. I 
know it takes training time and I know it's not going to be an 
overnight fix, but I can just tell you that people in my 
district, and I think I hear this echoed on both sides of the 
aisle, that the taxpayers in the United States of America do 
not believe that we are doing enough.
    So tell me what is enough, not just for Border Patrol, but 
certainly for technology and making their jobs easier, because 
in California I know that the Border Patrol people are very 
frustrated. I have some relatives out there who live very close 
to some people who work for Border Patrol out there. They're 
very frustrated at not just this administration's policy, but 
previous administrations' policy of kind of the wink and nod 
approach to illegal immigration. And Americans are fed up with 
it. They are tired of people constantly coming into this 
country illegally. And you know, a couple of years ago, we 
might have all bought that, well, they are doing jobs that 
average Americans won't do, but I'm not sure that still is the 
case. I think we filled our quota of jobs that Americans won't 
do. So we have to come up with another excuse why we are so 
lax, and I would appreciate your responses.
    Mr. Robert Bonner. Trying to take those quickly in 
sequence, the badges, we were the first law enforcement agency 
at the Department of Homeland Security to issue new badges. We 
have 30,000 uniformed law enforcement personnel, 11,000 Border 
Patrol agents, about 19,000 at the ports of entry, and all of 
the port of entry officers have the new CBP Department of 
Homeland Security badge. I think we're well along with all of 
the Border Patrol agents to get everybody with a badge. There 
has been a holdup in the credentials and that was getting--just 
a decision essentially that took more time than I would have 
liked, but I have authorized the credentials now and those 
haven't been issued, so that there will be new credentials for 
U.S. Customs and Border Protection.
    Ms. Brown-Waite. When will those credentials be issued?
    Mr. Robert Bonner. I honestly don't know. I will be happy 
to get that to you. It's printed and then you have 42,000 
employees.
    Ms. Brown-Waite. Do those 42,000 employees get paid 
regularly? I mean is it not something that could be put with 
their paychecks? Come on. It has been so long and this ID issue 
is a serious legal issue.
    Mr. Robert Bonner. I'm not saying it isn't. I feel we have 
done well on badges, but for reasons that I don't even know 
that I can fully explain to get the approval and the 
credentials from the Department of Homeland Security, we just 
got the approval recently. We certainly had been moving forward 
on that. In any event, it is done or is in the process of being 
done. As far as people not being able to get into the country 
or get a visa or they are in the country change of status, the 
Citizenship and Immigration Services, I mean that is an entity, 
a service and benefit immigration entity. It happens to be in 
the Department of Homeland Security, but it's not me. I can't 
really help with that particular issue.
    The overtime thing, I never heard that before. We use a lot 
of overtime obviously to be able to--I will get back to you. 
And I think I've taken my best stab how many Border Patrol 
agents we need short of divulging things.
    [The prepared statement of Hon. Ginny Brown-Waite follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.029
    
    [GRAPHIC] [TIFF OMITTED] T1365.030
    
    Chairman Tom Davis. We have one more Member who has not 
asked questions.
    Mr. Duncan. Thank you, Mr. Chairman, and I will take a few 
minutes. First of all, I agree with what Ms. Brown-Waite has 
said and can tell you based on things that I've read and heard 
from others across the country, I think there is probably three 
or four times as many illegal immigrants in this country as the 
government estimates.
    I read in Newsweek and read another report, that half the 
people of the world have to get by on $2 or less a day. The 
other article said half the people of the world don't have a 
second pair of shoes. And it made me recall many years ago, and 
this is my 17th year in the Congress, one of our agencies did 
an estimate that said half of the people in the world want to 
come here.
    Now we can't take half of the people in the world. That 
would be over 3 billion people. So we have to have some sort of 
orderly legal system of immigration. And right now we are 
overrun with illegal immigrants. And I read in this one report 
that we have in front of us that interior enforcement has gone 
down by 80 percent since 1998. And always, all the committees, 
whenever we hear about a government agency messing up, they 
blame it on one of two things or both. First thing they say is 
that they are underfunded. And second thing, they blame it on 
the computer system. They say the computers can't talk to each 
other or something.
    We found out that 15 of the 19 illegal people involved in 
the--hijackers involved in September 11 were here illegally. 
The INS said they were underfunded. And our Congressman 
Gallegly appeared on 60 Minutes said we have given 250 percent 
increase in funding to the INS over the previous 8 years. Since 
that time we have voted several times in the House to give 
additional funding and increases to the Border Patrol for 
increased numbers of agents, and yet we keep seeing all these 
people flood in here.
    We have this Minuteman Project who some people have 
criticized, which I think is in the best American tradition of 
volunteerism in trying to help out, and we have this quote in 
this one report from Mr. Simcox that says the government can't 
afford to let this thing succeed. I know that government 
agencies don't like to have volunteers because they want to get 
more employees and more money instead of having volunteers to 
help them with their jobs. But I can tell you this, it's 
getting frustrating for many of us, and we are all being 
flooded with complaints and criticisms and hearing about people 
who have wrecks and don't have insurance.
    Why are these enforcements going down and why were the 
Minutemen able to claim that they achieved such great success? 
And I had some complaints and so I kept trying to get the INS 
to come up a few years ago, and I had to deal with an office in 
New Orleans instead of Memphis or Washington. And I finally got 
them to come up and they came up for 2 days and they did two 
raids, 1 day apart from each other, and found 1,200 illegal 
immigrants. And they could come back the next day and find just 
as many.
    I mean, why do you have so many people who aren't wanting 
to do their jobs in this agency, Mr. Bonner?
    Mr. Robert Bonner. I don't think you do. Let me start off 
by saying, I guess there is the third excuse now because 
interior enforcement--you are talking to the border agency 
here, and I take responsibility for the border, but interior 
immigration enforcement is actually in ICE, in a different 
agency.
    But I will say this. Look, I said we need more Border 
Patrol agents. I appreciate the fact, one, that the 
intelligence bill had 2,000 more new Border Patrol agents in 
it. That wasn't a funding or an appropriation, that was 2,000 
more on paper. By the way, I'm very grateful and will state 
this right now that Congress has passed the supplemental and 
added 500 new Border Patrol agents in the supplemental that 
just passed and signed by the President either today or 
yesterday and that's a good start in the right direction.
    The Minuteman, by the way, I think I have said positive 
things about them, but that was 23 miles of border that we are 
talking about there. Based upon phone calls we've got from the 
Minuteman, Border Patrol apprehended about 200 people as a 
result of calls where they identified themselves as Minuteman. 
In the same period of time in the Arizona border, not the 23 
miles but the 300-mile Arizona border, the Border Patrol 
apprehended 79,000. You bet, look, we are talking about numbers 
that are overwhelming. And if we are serious about the border, 
we are going to have to add some real technology and we are 
going to have to add some more Border Patrol agents and get a 
handle on it.
    By the way, I welcome eyes and ears, volunteer citizens if 
we can make it work with some smart strategy rather than with 
something that exposes people to danger, including people that 
might be involved in a citizen type Minuteman Project. If there 
are ways to do it, it's certainly something I want to think 
about and see if there isn't some way we can do that and 
harness what is a lot of concern by American citizens about the 
number of illegal people that are getting into the country.
    Mr. Duncan. There is a lot of concern about this around the 
country.
    Chairman Tom Davis. Commissioner, thank you very much. And 
you have a difficult job and I think you have done well here as 
a witness. We appreciate your being here. If you could have 
your staff contact our committee staff regarding the UAV 
testing, the deployment and the responses to Mr. McHenry's and 
Ms. Brown-Waite's questions.
    We will take about a 3-minute recess as we change panels.
    [Recess.]
    Chairman Tom Davis. You are welcome to sit down. I know 
that you were just in the next committee.
    We have a great panel. We have Mr. T.J. Bonner, president 
of the National Border Patrol Council; Mr. Daryl Schermerhorn, 
the regional vice president of the National Border Patrol 
Council. Thank you both for being with us.
    We have Mr. Chris Simcox, the co-founder of the Minuteman 
Project, which was talked about previously, and we have Ms. 
Janice Kephart, former counsel of the National Commission on 
Terrorist Attacks Upon the United States. And also I am happy 
that today is her birthday. We appreciate you giving us so 
generously of your time.
    It is the policy of this committee we swear in all 
witnesses. So if you would rise with me and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Bonner, I understand you are going 
to give the testimony and Mr. Schermerhorn will be here for 
questions?
    Mr. T.J. Bonner. I will give the testimony and he will take 
the tough questions.
    Chairman Tom Davis. Mr. Simcox, we will go to you and Ms. 
Kephart. Thank you for your patience and thanks for being with 
us.

 STATEMENTS OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
   COUNCIL, ACCOMPANIED BY DARYL SCHERMERHORN, REGIONAL VICE 
  PRESIDENT, NATIONAL BORDER PATROL COUNCIL; CHRIS SIMCOX, CO-
  FOUNDER, THE MINUTEMAN PROJECT; AND JANICE KEPHART, FORMER 
COUNSEL, THE NATIONAL COMMISSION OF TERRORIST ATTACKS UPON THE 
                         UNITED STATES

                    STATEMENT OF T.J. BONNER

    Mr. T.J. Bonner. Thank you, Mr. Chairman, other members of 
the committee. The issue of border security is one that is in 
the forefront of every person's mind, especially after the 
events of September 11, and there can be no question that our 
borders, the U.S. borders, are out of control. Last year, the 
U.S. Border Patrol apprehended approximately 1.2 million 
people, but the front line agents estimate that for every 
person that we caught 2 or 3 people slipped by us.
    This is a matter of very great concern, because we don't 
know who those people are who are slipping by us. When we 
married the fingerprint system of the Border Patrol and the FBI 
together last September, in the first 3 months we discovered 
that 8 percent of all the people we were catching were 
criminals. And it's fair to assume that of the people who are 
slipping by us, at least the same percentage are criminals and 
probably for good measure there are a few terrorists in that 
mix. Even if a terrorist is a one in a million occurrence with 
several million people coming into the country every year, they 
reach that critical mass necessary to carry out another attack 
of the magnitude of September 11.
    This is totally unacceptable from the standpoint of 
homeland security and national security. We have to gain 
control of our borders. A number of measures have been proposed 
to gain control of our borders, but the National Border Patrol 
Council, representing the rank and file, the front line 
employees, believe that the only solution that is going to get 
us where we need to be is the implementation of legislation 
such as H.R. 98, which would give us a counterfeit proof 
employment authorization document allowing employers to know 
who has a right to work in this country and allowing enforcing 
agents to enforce that law with stiff fines.
    That is the only solution that will turn off the employment 
magnet. Unless we turn off the employment magnet, we will 
continue to have millions of people coming across our borders 
and mixed in that, at least 8 percent of them criminals and 
some terrorists.
    A lot of opinion polls have been taken of late as to how 
people feel about the security of our borders and how concerned 
they are about illegal immigration; 75 to 80 percent of all of 
the respondents expressed grave concern about the insecurity of 
our borders. The Minuteman Project is a manifestation of that 
frustration. The Federal Government clearly is not carrying its 
weight. We are not controlling the borders. Our borders are 
insecure. Ask any front line agent out there and they'll tell 
you that we are simply overwhelmed. It's not that we're sitting 
around doing nothing, but when millions of people are streaming 
in every year, there is only so much we can do. You can only be 
at one place at one given time. We have to gain control of the 
illegal immigration crisis if we are going to bring any 
semblance of security to our borders.
    So I go back to the point of the hearing that I just came 
from, where I was urging your colleagues to adopt a counterfeit 
proof form of employment verification to turn off the jobs 
magnet. People will stop coming to this country if they realize 
that unless they have that card they can't get a job. They will 
realize that it does them no good to trek across the desert for 
3 days if at the end of the rainbow they show up at an 
employer's doorstep and he says I am not going to hire you 
because I don't want to pay a $50,000 fine.
    This is a matter of national security and homeland 
security. The current tactics we're employing are not working. 
Putting more manpower out there is shoveling sand against the 
tide unless we deal with the employment magnet.
    Of course, we need more manpower once a new law is in place 
to turn off the employment magnet, which would enable us to go 
after the terrorists and the criminals who are out there, 
because that is our No. 1 priority in the Department of 
Homeland Security.
    And I thank you for your time and I urge you to seriously 
consider these measures. And I'm not here obviously to argue 
for H.R. 98, because that is a separate hearing, but what we 
are saying is that is the real solution to the insecure borders 
that we have.
    While we appreciate the efforts of people like Mr. Simcox, 
the support that they give, we do have concerns about citizens 
taking the law into their own hands, and I'm not saying Mr. 
Simcox's group did that, but I'm saying other groups may feel 
that is something that should be done. We would discourage 
people from doing that and we do not encourage people to go 
down to the border where it's very dangerous to make their 
political statement. We think it's important that they do so in 
a manner that protects their safety. But if the Federal 
Government continues to turn a blind eye to this problem, I 
fear that you'll see more and more people turning to desperate 
measures.
    [The prepared statement of Mr. T.J. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.031
    
    [GRAPHIC] [TIFF OMITTED] T1365.032
    
    [GRAPHIC] [TIFF OMITTED] T1365.033
    
    [GRAPHIC] [TIFF OMITTED] T1365.034
    
    [GRAPHIC] [TIFF OMITTED] T1365.035
    
    [GRAPHIC] [TIFF OMITTED] T1365.036
    
    [GRAPHIC] [TIFF OMITTED] T1365.037
    
    Chairman Tom Davis. Thank you very much. Mr. Simcox, 
welcome.

                   STATEMENT OF CHRIS SIMCOX

    Mr. Simcox. Thank you, Mr. Chairman, for the opportunity 
and thank you to the committee. I'm here to bring a very simple 
and direct message from we the people that too many citizens of 
Cochise County and other communities along the border have 
testified before these committees previously. We have sent 
letters, e-mails, faxes and have shown up at town hall meetings 
to no avail. This is about public safety and our national 
security, and we are done waiting bluntly for the Federal 
Government to do its job.
    Despite the efforts by many groups to portray our political 
statement as a racially motivated or anti-immigrant effort, we 
brought it back to what this is really about, which is national 
security and public safety. This great republic was founded and 
formed on immigration. When you come legally, you're welcome. 
What we have now is out of control, and the citizens basically 
have had enough.
    We hope this will encourage everyone to do something, 
because while you're waiting and while you are making up your 
minds what to do we are going to continue with Minuteman type 
projects. We are going to basically reinvent the civil defense 
movement that aided our country during World War II. We are 
basically under attack and there's an invasion. We have enough 
home grown criminals in this country, let alone the criminals 
that are coming in.
    I find it curious that there is so much worry about and 
speculation about vigilantism which, by the way, there have 
been zero incidents as of yet, but I hear little worry about 
the real terrorism that we deal with, such as the families of 
detectives Donald Young and Jack Bishop, who were murdered in 
Denver this week, law enforcement agents who are dying at the 
hands of criminals that come into this country.
    The citizens of Cochise County have made a statement, a 
clear statement, and I want to show you a half page ad that 
they took out in the local newspaper on Mother's Day thanking 
the Minuteman. From grateful residents of the Sierra Vista-
Hereford area, thanks for doing what our government won't do, 
which is close the border to illegal aliens and criminals. It 
was the quietest month we have had in many years. It was nice 
to once again have the freedom to hike our mountains without 
being armed. You made us feel very safe because the border was 
closed. We didn't have to worry about manmade fires, which we 
have another fire raging out of control now in our area, 
created by illegals trying to get away from Border Patrol and 
they felt secure.
    I think if there has ever been a mandate, this is a mandate 
from the citizens. We are going to continue to abide by the law 
and work within the law, but honestly, we don't need, as I 
heard comments about that we need to be regulated, I think we 
have proven that citizens that participate in the Minuteman 
Project were of the utmost highest character and standards of 
American citizens. We're there to defend our property, our 
private property, our Nation, to defend the sovereignty of our 
borders, and a country is not a country without borders.
    So again, and I ask why are our borders dangerous? I keep 
hearing this from, with all due respect, the Border Patrol. If 
the Department of Homeland Security almost 4 years after the 
attacks of September 11 were doing their jobs, our borders 
would be safe. Why should American citizens sitting in lawn 
chairs with cell phones and binoculars have to fear for their 
safety on U.S. soil? That is intolerable and unacceptable from 
our point.
    I'm very impressed with the security at the airports and 
here in Washington. I have never seen so much security. I think 
the citizens who live along the southern border would like to 
see the same kind of security right on the line. And when we 
talk about Border Patrol what we see and what we have proven 
during April is that you need border guards, not a Border 
Patrol. We need static observation posts set up along that 
2,000-mile sector. We give you our permission, the citizens of 
this Nation give you permission to spend whatever it takes to 
man Border Patrol and what we would like to see is that 
immediately done, and that means using military reserves and 
our National Guard.
    I don't think the families of Donald Young and other 
Americans who have fallen victim to the crime that have come 
across that border would care about the rules of posse 
comitatus, and we don't accept that argument. We are not asking 
for our military to be used against American citizens. We are 
asking that it be used to protect our country, our neighbors 
and private property.
    So that's the message we bring. We have another Minuteman 
Project working this weekend, and I would invite all of the 
committee members, any time you want to come down and see what 
the border is really like, you should do it unannounced. We 
will be more than happy to show you the lack of homeland 
security on any given day. The rank and file Border Patrol 
agents, I have worked with them for 3 years, they are great 
people and work hard. Whoever is managing them is not doing the 
best job, and we the citizens have proven there is a better 
way.
    Thank you.
    [The prepared statement of Mr. Simcox follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.038
    
    [GRAPHIC] [TIFF OMITTED] T1365.039
    
    [GRAPHIC] [TIFF OMITTED] T1365.040
    
    [GRAPHIC] [TIFF OMITTED] T1365.041
    
    [GRAPHIC] [TIFF OMITTED] T1365.042
    
    [GRAPHIC] [TIFF OMITTED] T1365.043
    
    [GRAPHIC] [TIFF OMITTED] T1365.044
    
    [GRAPHIC] [TIFF OMITTED] T1365.045
    
    [GRAPHIC] [TIFF OMITTED] T1365.046
    
    [GRAPHIC] [TIFF OMITTED] T1365.047
    
    [GRAPHIC] [TIFF OMITTED] T1365.048
    
    [GRAPHIC] [TIFF OMITTED] T1365.049
    
    Chairman Tom Davis. Thank you very much. Ms. Kephart, thank 
you for being with us.

                  STATEMENT OF JANICE KEPHART

    Ms. Kephart. Thank you Chairman Davis. Thank you for 
holding this hearing and giving me the opportunity to discuss 
with you both terrorist travel and the national security 
mission of our border agencies.
    From my vantage point of spending 15 months devoted to 
figuring out how the September 11 terrorists conducted their 
travel operation into the United States so easily, it is clear 
to me that if national security is to become a reality for our 
border agencies, we must put old thinking aside, incorporating 
all we know about terrorist travel. We must put together a 
long-term plan that seamlessly integrates policies across our 
border apparatus, maximizing security and efficiency. Yet a 
comprehensive and cohesive long-term border plan will not be an 
easy goal to reach as long as the seven elements of our border 
system remain fragmented into three departments and six 
agencies, and this is just one of the many reasons why I have 
proposed consideration of the creation of a Department of 
Immigration and Border Protection.
    But let's step back and understand what terrorist travel 
is. Start with the fact that foreign terrorists carefully plan 
their attempts to enter and stay in the United States based on 
a relatively sophisticated understanding of our border system. 
Terrorists will use any infiltration tactic if it works, from 
hiding in a ship's hole or a car trunk to fraudulently seeking 
legitimate U.S. visas and passports as the hijackers. These 
terrorists do not just represent al Qaeda. Hamas and Hezbollah 
and lesser known terrorist organizations operatives also engage 
in all varieties of immigration fraud.
    Once in the United States, terrorists seek legal status. 
They resist removal through shared marriages, claims of 
political asylum and applications for naturalization. A 
terrorist managed to stay in the United States when his spouse 
won the visa lottery. They seek United States and State issued 
identifications to establish themselves in communities and 
travel more easily. And wherever a vulnerability exists from 
visa issuance to admission standards at our ports of entry to 
our immigration benefits adjudication system, terrorists take 
advantage of it.
    While we work on long-term solutions, we cannot wait to fix 
severe deficiencies that have existed for a decade prior to 
September 11. Solutions are required now. We are once more in 
crisis on our hard borders, both north and south. The Minuteman 
Project has made that clear. The project has also made clear 
that the American people get what we said on the 9/11 
Commission, that border security is national security. We must 
now seek out ways to relieve these good people of these duties 
and help the government do the job it is supposed to be doing.
    For now, it is here that we must focus our efforts to 
prevent potential clandestine entry by terrorists. Clandestine 
entry permits terrorists the anonymity we are lucky the 
September 11 hijackers did not have.
    In addition, information I acquired on the commission along 
with comments in recent weeks by Admiral Loy and FBI Director 
Mueller all indicate that terror organizations do seek illicit 
entry into the United States. Remember, for example, the 
Lebanese Mexican human smuggler Bougadaro, who brought in over 
300 Hezbollah sympathizers by way of false visas in Tijuana in 
the last few years. He served a short 11 months in U.S. jails 
and is now serving time in Mexico.
    Also Hezbollah operative Mahmoud Kourani, who pled guilty 
to terrorism charges last month in Detroit, crossed over the 
southwest U.S. border in a car trunk in February 2001.
    There was also Nabil al-Marabh, a likely member of al 
Qaeda, who was caught trying to cross over the northern borders 
at Niagara Falls in the back of a tractor-trailer in June 2001. 
Not only was al-Marabh a frequent border crosser and had a fake 
Canadian passport, but he also held five U.S. driver's licenses 
acquired in 13 months along with the commercial driver's 
license and a permit to haul hazardous materials.
    In light of the national security interests in securing our 
hard borders, the Border Patrol has needs that need to be met 
now and they include centralized operational intelligence, 
centralized command and control, streamlined business processes 
to enable agents to spend less time in offices and more time in 
patrolling, tracking communication devices to ensure greater 
safety and efficiency in operations, forensic support for false 
documents, access to US-VISIT and aggressive use of expedited 
removal.
    In conclusion, terrorists are creative and they are 
adaptable. Yet we have the ability to counter them by being 
adaptable in our thinking and providing front line officers 
with the tools they need to do the job they are all eager to 
do.
    My written testimony lays out many, many recommendations 
that I believe will infuse the rule of law and integrity into 
the system that can deter terrorists and illegal entry. Thank 
you.
    [The prepared statement of Ms. Kephart follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.050
    
    [GRAPHIC] [TIFF OMITTED] T1365.051
    
    [GRAPHIC] [TIFF OMITTED] T1365.052
    
    [GRAPHIC] [TIFF OMITTED] T1365.053
    
    [GRAPHIC] [TIFF OMITTED] T1365.054
    
    [GRAPHIC] [TIFF OMITTED] T1365.055
    
    [GRAPHIC] [TIFF OMITTED] T1365.056
    
    [GRAPHIC] [TIFF OMITTED] T1365.057
    
    [GRAPHIC] [TIFF OMITTED] T1365.058
    
    [GRAPHIC] [TIFF OMITTED] T1365.059
    
    [GRAPHIC] [TIFF OMITTED] T1365.060
    
    [GRAPHIC] [TIFF OMITTED] T1365.061
    
    [GRAPHIC] [TIFF OMITTED] T1365.062
    
    [GRAPHIC] [TIFF OMITTED] T1365.063
    
    [GRAPHIC] [TIFF OMITTED] T1365.064
    
    [GRAPHIC] [TIFF OMITTED] T1365.065
    
    [GRAPHIC] [TIFF OMITTED] T1365.066
    
    [GRAPHIC] [TIFF OMITTED] T1365.067
    
    [GRAPHIC] [TIFF OMITTED] T1365.068
    
    [GRAPHIC] [TIFF OMITTED] T1365.069
    
    [GRAPHIC] [TIFF OMITTED] T1365.070
    
    [GRAPHIC] [TIFF OMITTED] T1365.071
    
    [GRAPHIC] [TIFF OMITTED] T1365.072
    
    [GRAPHIC] [TIFF OMITTED] T1365.073
    
    [GRAPHIC] [TIFF OMITTED] T1365.074
    
    Chairman Tom Davis. I want to thank all of you. Mr. Bonner, 
let me start with you. Even--and I pick the idea of the card 
that Mr. Dreier has talked about today is a good day. But even 
without a card, someone coming here illegally, if they have 
their kid in the United States, their child is a citizen, isn't 
that right?
    Mr. T.J. Bonner. Someone born in the United States is a 
U.S. citizen.
    Chairman Tom Davis. If you want to get your kids in here--
if you want your kids born here for a better life. Second, if 
you present yourself in an emergency room, they're not going to 
ask you for proof of citizenship, right?
    Mr. T.J. Bonner. That's correct.
    Chairman Tom Davis. And if you're here and you can get into 
the population, you can get your kids into the public school 
and they're not going to ask them. They are going to have to 
educate them, right?
    Mr. T.J. Bonner. Depending on where you are. If you're 
close to the border, they are going to require proof that you 
actually live in the United States.
    Chairman Tom Davis. But not here illegally?
    Mr. T.J. Bonner. Right.
    Chairman Tom Davis. The card doesn't solve all those 
problems, but goes a long way and from your perspective having 
that card, once people are inside the border that is a nice 
check, is that what you're saying?
    Mr. T.J. Bonner. The real magnets here are the jobs. People 
aren't coming here to take advantage of our education or health 
system. They are coming because in most of these countries, 
Mexico is a good example, the average unskilled worker makes $4 
a day and they can go a few yards north of the border and 
increase that 20, 30 times easily. So they're coming to improve 
their economic lot in life. And I'm not saying I blame them, 
but it creates a huge problem, because it's very labor 
intensive to deal with millions of people crossing the border. 
It's not just a game where you say tag, you're it. What you 
have to do is process these people, detain them, run criminal 
checks and then send them back and that takes up our resources 
and in the meantime other people are coming in. They don't give 
us a time out.
    Chairman Tom Davis. What do you think of the Minuteman 
Project?
    Mr. T.J. Bonner. I think the Minuteman Project is, as I 
said earlier, a manifestation of the frustration that average 
Americans are feeling and it's not something new. There was a 
project called Light Up the Border in San Diego back in the 
late 1980's, early 1990's, where citizens drove down to the 
border and shined their headlights on the border to highlight 
the problem of the lawlessness on the border. The Border Patrol 
installed first temporary and then permanent lighting in fences 
and it brought an end to that lawlessness in that part of the 
world.
    Now I think that the Minuteman experienced some success 
down there in Arizona, in that during the time period that they 
sat out in their lawn chairs in that 23-mile stretch of border 
very few people came through. I think a large part of that 
success was due to the fact that the Mexican military was down 
south of that telling people don't cross through here. Now we 
can't depend on the Mexican military to blockade the entire 
southern border.
    Chairman Tom Davis. Do you think the Mexican military is 
complicit with some of the people crossing the border?
    Mr. T.J. Bonner. Absolutely. Our agents have been shot at 
by the Mexican military as a diversion to keep us away from 
some of the drugs being smuggled across. We caught--down in 
Santa Teresa, NM, we caught two Humvees with armed Mexican 
soldiers who were shooting at us on U.S. soil, chasing our 
agents and shooting at us.
    Chairman Tom Davis. They do that at North and South Korea. 
But I guess it occurs all the time down there?
    Mr. T.J. Bonner. I wouldn't say all the time but it occurs 
often enough and it is a matter of great concern to our agents.
    Chairman Tom Davis. What is the level of drug smuggling 
across the border, do you think, of the people coming over?
    Mr. T.J. Bonner. It is tremendous and let me turn over the 
microphone over to Daryl Schermerhorn, who just apprehended the 
largest narcotics seizure on the Canadian border last week.
    Chairman Tom Davis. Congratulations and thank you.
    Mr. Schermerhorn. Along the northern border the BC buds are 
going for such a high price that the Canadians are growing it 
and bringing it across daily. We are apprehending some of the 
loads. Many are getting by. Three nights ago, Border Patrol 
apprehended 45 pounds of Ecstasy valued at over $1 million. 
It's a daily occurrence that drug loads are coming through.
    Chairman Tom Davis. Mr. Simcox, on the one hand we have a 
lot of frustrated citizens and all of us go out into our 
districts and hear there needs to be a greater presence on the 
border. On the other hand, we have critics who think that the 
southern border is no place for private citizens or vigilante 
enforcement and Members' opinions are varied as well.
    From your judgment, what is the reality of the situation on 
the southern border, particularly in Arizona where you were?
    Mr. Simcox. The reality is we do not have enough Border 
Patrol agents.
    Chairman Tom Davis. Or listening devices?
    Mr. Simcox. A lot of the equipment and a lot of the 
supposed sensors that we were setting off were found to be 
inoperable and we worked with the Border Patrol previous to our 
mission to ensure that we were not in those areas. But it's 
manpower. The equipment works. In fact we have been pleased 
with cameras, camera poles that have been erected right in 
areas we have led them to.
    Remember, the Minuteman patrols have been going on for 
almost 3 years and we started in Cochise County and we assisted 
Border Patrol with over 4,600 apprehensions, and that 
represents people from 26 different countries. And we have made 
150 lifesaving rescues. It is every night day after day. And if 
Border Patrol had the resources, they should be on the border. 
We should not have to be citizens calling in groups of 20, 30, 
40 people, 10, 15, 20 miles north of the border. And that was 
our goal during the Minuteman Project. Bodies on the line are a 
deterrent to prevent people coming into the country in the 
first place.
    Chairman Tom Davis. My time is up. Mr. Cummings.
    Mr. Cummings. I want to yield to Mr. Van Hollen.
    Chairman Tom Davis. I recognize Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I thank my 
colleague Mr. Cummings and I have another meeting, so I would 
like to submit a statement. One additional point, and this goes 
to some of the comments our witnesses are making. In this body, 
just a very short time ago, we had the emergency supplemental 
appropriations before us and there was a motion made by Mr. 
Obey, Congressman from Wisconsin, to increase the funds for 
border security and border patrol so we could put more people 
on that border. I supported that motion, and a lot of our 
colleagues supported that motion. Unfortunately, it did not 
carry. But I hope all of our colleagues will agree with you 
that we should put more resources into that effort and increase 
our border security.
    Thank you, Mr. Chairman, and thank you, Mr. Cummings.
    [The prepared statement of Hon. Chris Van Hollen follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.081
    
    [GRAPHIC] [TIFF OMITTED] T1365.082
    
    Mr. Cummings. I yield now to Ms. Sanchez.
    Ms. Sanchez. Thank you for yielding, Mr. Cummings. I have 
another engagement but this is a question I feel is important 
enough to ask and I would ask it of Mr. Simcox. You just stated 
in a response to one of the questions that supposedly whatever 
sensors you are tripping at the border or that your members or 
the Minuteman are tripping are found to be inoperable. But to 
the extent that you guys are tripping sensors that are operable 
and you are diverting scarce Federal resources at the border, 
which everybody agrees there aren't enough agents or resources, 
to the extent that you are diverting those because you are 
tripping these sensors, aren't you in fact making the border 
less secure because you are causing them to respond to you who 
are not a real threat? I don't see the wisdom in getting 
together people to try to do a job that you are specifically 
not trained to do and getting in the way of the scarce number 
of Federal agents and resources that are available at the 
border, and I would love for you to answer that question.
    Mr. Simcox. Our operation was highly publicized and we 
worked with Border Patrol months in advance to alert them to 
the locations we would be working in. That was Border Patrol's 
choice to continue to monitor our activities in that area. We 
worked with Border Patrol. We identified each of the 
observation posts. There was no one coming through that area. 
Border Patrol knew that. One of the most heavily traveled 
routes was completely shut down. Why was border patrol there?
    Ms. Sanchez. So your response is if you guys are there, 
Border Patrol need not be there, even though you are not 
trained? You guys go through no training in terms of border 
security. So if citizens, nontrained citizens, are there, you 
maintain Border Patrol need not be there?
    Mr. Simcox. They would be there to respond to our calls if 
we witnessed someone coming. The border road is a public right 
of way. All citizens have access to the road. They drive on 
that road every day.
    Ms. Sanchez. With respect to tripping sensors and diverting 
attention away from the regular Border Patrol duties because 
citizens are there and are causing that to happen, you don't 
think that is a problem?
    Mr. Simcox. Our presence shut down those sectors. There was 
no need for Border Patrol to be there because the Mexican 
military, working with the advertisement of the Minutemen 
Project, worked to deter people from coming through that area. 
How about if we were to advertise that across the entire 2,000-
mile border and worked with the Mexican Government? People will 
not be coming in in the first place.
    Ms. Sanchez. So your testimony is wherever the Minutemen 
are, there is no need to send Border Patrol to those areas?
    Mr. Simcox. We would be force multipliers that would create 
a deterrence to allow Border Patrol to be used in other areas.
    Ms. Sanchez. I don't happen to agree with you.
    I yield back to the distinguished ranking member.
    [The prepared statement of Hon. Linda T. Sanchez follows:]

    [GRAPHIC] [TIFF OMITTED] T1365.083
    
    [GRAPHIC] [TIFF OMITTED] T1365.084
    
    [GRAPHIC] [TIFF OMITTED] T1365.085
    
    [GRAPHIC] [TIFF OMITTED] T1365.086
    
    [GRAPHIC] [TIFF OMITTED] T1365.087
    
    Mr. Cummings. Just one question. You are saying if Border 
Patrol is present, if your group is present, then Border Patrol 
is not needed. Is that what you are saying?
    Mr. Simcox. In this instance, the areas which we were 
occupying, the illegal immigration flow dropped to almost zero. 
What we wanted to do was prove that an obvious presence--we 
would like to be relieved from duty. We would like to see the 
U.S. military or Border Patrol set up the same strategy which 
would create the same deterrence to anyone to cross the border.
    Mr. Cummings. Have you gotten any complaint from DHS or 
Border Patrol?
    Mr. Simcox. Only from Sector Chief Michael Nicely. The rank 
and file were absolutely supportive.
    Mr. Cummings. What was that complaint?
    Mr. Simcox. We were setting off sensors and diverting 
resources to our area unnecessarily.
    Chairman Tom Davis. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I have great 
admiration and respect for the work the Minutemen have done. I 
think it is in one of the best traditions of our country. I 
think it was a very patriotic thing that Mr. Simcox and his 
associates did. The way I feel about this was summed up best--
read the first two or three sentences of that ad again, what 
you read.
    Mr. Simcox. The ad, along with hundreds of e-mails and 
letters of support that came to the organization, citizens were 
grateful. ``Thanks for doing what our government won't do, 
which is close the border to illegal aliens. It was the 
quietest month we have had in many years.''
    Mr. Duncan. I spent 7\1/2\ years as a criminal court judge 
trying felony criminal cases before I came to Congress, and 
whenever a defendant took off or skipped bond, the bonding 
companies went after them. That is done all over the country. I 
don't think people realize how much law enforcement is done in 
this country through private agencies or citizens or 
businesses.
    In addition to that, it is clear to anybody who studied 
this that we get our biggest bang for our buck in law 
enforcement from our lowest-paid law enforcement officials, the 
local law enforcement officials. I think if we took half of the 
money we are spending now on border enforcement and turned it 
over to local enforcement along the border, we would probably 
apprehend more illegal aliens.
    I am not advocating that because it is a Federal 
responsibility, but over the last 10 years or so, we have given 
INS, the Border Patrol, Customs, all of the agencies involved, 
whopping increases in spending, probably at least at a minimum 
10 times the rate of inflation over those years, yet they 
continually cry about being underfunded. I think they hire too 
many chiefs and not enough Indians. I am proud of what you have 
done, and I wanted to stay here and tell you that. Thank you 
very much.
    Mr. Simcox. Thank you.
    Chairman Tom Davis. Mr. Ruppersberger.
    Mr. Ruppersberger. I think your concept is great. I think 
when we as government--and government cannot do all things. 
When citizens step up, I think it is very positive.
    My concern is the management of you working with Border 
Patrol, because if, in fact, we do not have the proper 
management and focus on what our end goal is to stop the 
immigration problem, there could be an incident that someone is 
hurt, and that could hurt your whole process.
    My question really, and I am not sure who to ask this to, 
but do you have an agreement of understanding if you are going 
to go to a certain area, are the Border Patrol--are they 
working with you? If you see a situation, do you have 
communication, resources to get the Border Patrol there to do 
what they have to do?
    Mr. Simcox. Yes. On all of our patrols, we have always 
alerted Border Patrol to our presence in that area so there is 
no confusion. Communications work fine through cell phones.
    Ms. Sanchez talked about training. There is not a lot of 
training involved other than being alert and vigilant. And when 
you recognize suspicious activity, you call Border Patrol, and 
they respond quickly.
    Mr. Ruppersberger. I talked about citizens on patrol in our 
community in my opening statement. We publicize it and make 
sure there are communications to the police. That is basically 
your format also?
    Mr. Simcox. Neighborhood watch group.
    Mr. Ruppersberger. And you are not doing the apprehension?
    Mr. Simcox. No.
    Mr. Ruppersberger. I think it is important that people 
understand that. You are not doing the apprehension. If that is 
the case, I think it is a very positive program.
    Where are you getting your resources for communication to 
contact the Border Patrol when they are someplace else?
    Mr. Simcox. Cell phones. At this point, that is the only 
communication. We have worked in previous years with Border 
Patrol by giving them our basic FRS radios that you can buy at 
any store, and they have worked very well with us. We monitor 
an area, report to them, and they do the job. They do the 
apprehension.
    Mr. Ruppersberger. Mr. Bonner, you made a comment about the 
real problem. We all think we need more resources and boots on 
the ground, and also technology. But the bottom line has to do 
with the employers. There are certain programs. There is a 
guest program right now that is out there where the employers 
have the obligation to make sure everyone who comes has 
identification, I assume it is a work permit or whatever needs 
to be done. We are never going to solve this problem just by 
dealing with the borders because people are willing to risk 
their lives because of jobs. It is about jobs. Yet the 
President's position is there are a lot of jobs that are 
unfilled. In Maryland we have a crabbing industry. There are 
people who came over for the temporary jobs, and the industry 
was going to have real problems. They could not get anybody to 
fill the temporary jobs. From what I understand, these people 
are coming over, and they are temporary. They are identified, 
and they go back.
    Do you have an opinion on that type of program, what needs 
to be done?
    Mr. T.J. Bonner. The guest worker program will only work if 
you have a theoretical fence, because a guest worker program is 
a gate, if you will, and without a fence around the property, 
people will just go around. That is why the Bracero program 
failed back in the 1960's because it was easier for someone to 
just walk across the border and get that job.
    I think a guest worker program could easily work in concert 
with tougher employer sanctions where you could actually 
identify who has a right to be here. Then you could bring 
people in if there are jobs.
    Mr. Ruppersberger. And hold the employers more accountable. 
People come and then they leave, and you don't know who or 
where they are.
    Ms. Kephart, the thing that concerns me greatly is the 
issue of narcoterrorism. What resources do you think we need as 
far as the border as it relates to the terrorism issue?
    Ms. Kephart. Let me back up and give a little background on 
what I testified to. What I referred to was what I came across 
when I was on the Commission, an unclassified Border Patrol 
alert that is now a year and a half old that said the Colombia 
FARC was meeting with al Qaeda in Madrid, Spain, to seek 
Mexican Islamic converts to come through the southwest border 
clandestine.
    That was of very great interest to me and my colleagues on 
my time on the 9/11 Commission, and we began to look at the 
human smuggling aspect, the international terrorist travel 
aspect, what we needed to do to work with other governments to 
make sure we have law enforcement to prevent the human 
smugglers from coming into the United States, stronger laws 
against human smuggling.
    For example, one of the things you will hear is former drug 
couriers who have been arrested would turn to human smuggling 
because the sentencing is so low. You heard me mention 
Bougadaro who only got 11 months in the United States. We need 
tougher sentencing. We do have a human smuggling center right 
now. We need to give them the resources, and we need to make 
sure that it becomes a priority for our DHS law enforcement.
    Right now at DHS, the FBI still has the counterterrorism 
mandate. The DHS and ICE folks do not have that mandate. They 
have a great role to play in counterterrorism, and that was not 
really fought for them, and they can have that role. So it is a 
combination of things.
    Mr. Ruppersberger. Thank you.
    Chairman Tom Davis. Thank you.
    Mr. Marchant.
    Mr. Marchant. Ms. Kephart, in your interviews that you 
conducted with the Border Patrol, what was the most common 
problem that they identify as shortfalls in their tools? What 
was the largest impediment to them doing their job?
    Ms. Kephart. Remember that the September 11 hijackers came 
in through airports of entry. The majority of my focus was 
there. However, part of my role was to figure out why the INS 
had failed in counterterrorism and why they had no policy 
there. So I did look at the Border Patrol and interviewed the 
Border Patrol Chief, but did not go out to the field just to 
clarify. However, what we were talking about were the same 
things they were talking about a decade ago, a lack of human 
resources, a lack of up-to-grade technological resources; for 
example, told me in the early 1990's they were still working 
from manual typewriters to type up their reporting. Right now 
sometimes they are dealing with five different forms to fill 
out once they bring, for example, other than Mexican into their 
station. It takes them 3 to 5 hours to process those folks. 
They need that streamlined so they can be out in the field.
    So they do not have the technology in the field for the 
rapid response, as Commissioner Bonner was saying. They do not 
have the business processes. They do not have operational 
intelligence that is centralized. They have none of it. They 
are operating, sector by sector, pretty much as people come 
across. They do not have centralized command and control.
    We talk about, and Mr. Simcox talks about, the military 
being on the border. The military would never put up with not 
having centralized command and control, but the Border Patrol 
does not have that. So part of my answer was my own analysis, 
and part of it is what the Border Patrol has told me before.
    Mr. Marchant. This question is for Mr. Bonner.
    Mr. Bonner, when someone walks across the border from 
Mexico or from Canada, what is their legal status?
    Mr. T.J. Bonner. Their legal status? They are in our 
country illegally when they cross that border. The first 
offense is a misdemeanor.
    Mr. Marchant. What is the degree of the criminal act?
    Mr. T.J. Bonner. The first offense it is a misdemeanor; and 
subsequently it is a felony.
    Mr. Marchant. What court is it adjudicated in?
    Mr. T.J. Bonner. It is not. Typically we offer people to 
voluntarily return to their country of origin unless we have 
identified through our fingerprinting system that they have 
entered, and depending which sector you are in, up to 25 times 
before you will initiate any action, and that is just a formal 
deportation hearing.
    Mr. Marchant. So the recidivism rate is 20, 25 before they 
are successful.
    Mr. T.J. Bonner. People keep trying until they make it. The 
ones that get by us, we have no record of them. I think it is a 
safe assumption if you catch somebody eight times and you do 
not see them again, they got by you. They did not just give up 
and say, I will go back to my $4-a-day job at home.
    Mr. Marchant. Obviously there have been Border Patrol 
officers killed.
    Mr. T.J. Bonner. Nearly 100.
    Mr. Marchant. So there is some aggressiveness on the part 
of the criminal, in my view.
    Mr. T.J. Bonner. Sure. This has escalated in recent years. 
Because of our court system being so lenient on people who 
assault Federal officers, we find people are more willing to 
shoot it out with Federal officers. When I came in 27 years 
ago, the drug smugglers would be armed to protect themselves 
against each other, but when they were apprehended by Federal 
officers, they would ditch their weapons. Now they are more 
inclined to shoot it out with Federal officers.
    Mr. Marchant. What is permissible use of force for a Border 
Patrol agent?
    Mr. T.J. Bonner. Whatever is appropriate to the situation. 
If someone is firing at you, you are authorized to fire back.
    Mr. Marchant. That is defense. What is proper procedure for 
one to apprehend?
    Mr. T.J. Bonner. Only that level of force necessary to 
effect apprehension. We start out with verbal commands, ask 
them to stop. If they run, we are allowed to grab them and 
bring them under control. If they resist arrest, we are allowed 
to use the level of force appropriate.
    Mr. Marchant. Stun guns, rubber bullets.
    Mr. T.J. Bonner. No stun guns or rubber bullets. We have 
pepper spray and collapsible steel batons as intermediate 
weapons.
    Mr. Marchant. So if a guy gets 25 or 30 feet away, you are 
either faster----
    Mr. T.J. Bonner. You are going to have to outsmart that 
person or be faster. You are not authorized to use force just 
to stop someone from running.
    Mr. Marchant. So a normal police method in a city or a 
county for a sheriff cannot be employed by a Border Patrol 
agent?
    Mr. T.J. Bonner. Well, it depends on what you are talking 
about as a normal city or county. If a shoplifter is running 
away, most jurisdictions do not authorize any type of force to 
stop that.
    Mr. Marchant. So an offense is considered an offense 
similar to shoplifting?
    Mr. T.J. Bonner. I think that is one way to characterize 
it.
    Chairman Tom Davis. Thank you.
    We will do just a couple more questions.
    Let me ask Ms. Kephart, this committee has worked 
tirelessly on the issue of terrorist travel, something you are 
acquainted with. We have sought to strengthen domestic identity 
requirements for individuals to strengthen our intelligence 
function, to better identify and track individuals of interest. 
As we strengthen security in these areas, it appears likely 
that terrorists and other criminals will not seek to enter 
through official channels, but through holes in our border. 
What does our intelligence tell us about the intent of al Qaeda 
and other groups that seek to enter our country illegally and 
do us harm, and what are the weaknesses that they have 
identified that we have not rectified yet?
    Ms. Kephart. In terms of current intelligence, I cannot 
speak to it because I am not privy to it anymore. We had 
documents upon documents.
    Chairman Tom Davis. Just go back a year.
    Ms. Kephart. The thing that we need to understand about al 
Qaeda is they had a very sophisticated travel operation. When I 
started on the Commission, our congressional mandate was to 
look at border security. But as we started looking at detainee 
reports, it became clear it was actually a travel operation. As 
I put together the chronology in our staff report, September 11 
and terrorist travel, it became clear that the travel operation 
started back in Afghanistan and moved--it started with the 
recruit, and that recruit would go to Afghanistan through a 
specific travel operation, false passports through Iran or 
Pakistan, and they would come out and be instructed where to go 
and what to do. They had travel facilitators all over the world 
helping them. We discussed the intelligence that we have about 
that, Riyadh, the facilitator, etc., specific biographies of 
those folks.
    So we know they were sophisticated in their travel 
operation. The thing that I learned, sort of my own analysis 
from looking at this, that Mohammed Atta--the pilots came in 
first. The muscle came in the 2001, but the pilots were here 
for about a year before that with a couple of exceptions. 
Mohammed Atta was sort of testing the system as he was moving 
through it. He came in three times before any of the muscle 
came in. He figured out length of stay was 6 months if you are 
a tourist, so ask for a tourist. If that meant bringing the 
hijackers, the muscle, in the spring and summer of 2001 meant 
they had a legitimate length of stay while they were here, it 
was clear he did not want his folks to go illegal in the 
immigration system. It was also clear that identifications were 
extremely important to them to embedding. He also sought 
immigration benefits for himself, changing of tourist status to 
student status. They even went so far as to go into an 
immigration benefit service center, he and one of the other 
pilots, I believe, in May 2001, asking for a longer length of 
stay for one of the pilots until September 8, 2001.
    So what we have then for our intelligence is an 
understanding that terrorists travel operationally very 
carefully. If the fraudulent passport does not work or getting 
the visa does not work, they will be prevented from going where 
they go, or else they will seek another point of entry. From 
that point of view, we did establish that terrorist travel 
exists.
    Weaknesses in the system, I think I would be here all 
afternoon. But I do lay out a series of about five pages of 
recommendations, some of which are very discrete, about our 
ports of entry, about our immigration benefits, and immigration 
enforcement and our Border Patrol, things that we need. But 
mostly I think the biggest weakness is tremendous fragmentation 
in the system.
    Before September 11 we had three departments and three 
agencies running immigration and border security. Now we have 
three different departments and six agencies running it, and we 
do not have holistic policymaking. Nobody has an idea of the 
structure at the top and what we are looking for.
    Chairman Tom Davis. Is it still very stovepiped?
    Ms. Kephart. We are more stovepiped than we were. When I 
hear discussions of mergers of ICE and CBP, yes, that would be 
helpful to some degree, but it is only part of the problem. We 
still have immigration benefits, consular officers at the State 
Department; we have the Coast Guard, which is in a different 
part of DHS; and we have a President who recognizes that border 
security is national security, but there are so many layers of 
bureaucracy, a wholehearted approach on how to achieve border 
security truly with overarching policies is just nonexistent. 
That, to me, is the biggest weakness right now.
    Mr. Tom Davis. Thank you.
    Mr. Cummings.
    Mr. Cummings. Ms. Kephart, I just listened to what you 
said. It sounds like we are worse off from a security 
standpoint than maybe we were prior to September 11. Is that 
accurate or inaccurate?
    Ms. Kephart. We have made some strides ahead. I think we 
have pulled back in other ways. I don't think we have a 
holistic approach to border security right now, and I think it 
is hurting us. We are approaching things to some degree 
myopically, looking at just the Border Patrol or just 
immigration benefits without looking at the whole thing and how 
to make it right.
    But we do have a recognition now of the importance of 
border security and national security, which is extremely 
important. And it has made people, for example, very 
encouraging, biometrics insisted upon, new rules for our 
passports, new rules for our identification set that is now 
being passed, US-VISIT which is at our ports of entry and needs 
to get out for exit data as well. So we have some real 
positives, but we need to bring it all together. That is my 
frustration.
    Mr. Cummings. When I listen to the testimony here, it 
reminds me of a situation where it is like a circle. We seem to 
be covering maybe about three-fourths, maybe even 90 percent of 
the circle, but there is an opening called border, and as we 
think that we are guarding everything, people are slipping in 
through that opening.
    That leads me to you, Mr. Bonner. When you listen to Mr. 
Simcox, and then I think about the testimony you just gave a 
few minutes ago about the fact that folks are toting guns, that 
is some of these folks trying to cross the border, and then I 
combine it with what my colleague said comparing the Minutemen 
to Citizens on Patrol, is that your perception?
    If I have people with guns, and I have everyday citizens--
and, Mr. Simcox, one of the documents says keep your guns in 
your holsters?
    Mr. Simcox. Yes.
    Mr. Cummings. Do you feel comfortable with that as a 
professional representing these people?
    Mr. T.J. Bonner. Border Patrol agents undergo 19 weeks of 
intensive training. It makes us nervous when citizens are out 
there armed because things go bump in the night when you are 
out there. Untrained people might do things that a trained 
person would not do. The fact that people are out there armed, 
and I realize in Arizona that is permissible under their State 
law, and other parts of the country it is not, but it certainly 
is something that concerns me.
    And I have talked with some Minutemen, some nice 
grandmothers, and I am concerned that they go down there, and 
they are really down there to make a political statement, but 
they get caught in the crossfires of one of these drug 
smugglers who thinks that they are shooting at Border Patrol, 
and they kill some nice grandmother who leaves behind a family, 
and all she was trying to do was make a statement that she 
wanted the U.S. Government to step up to the plate and secure 
our borders.
    There are a number of concerns that I have about this, as 
the movement grows, as people think they are going to make a 
difference, if you blockade the border, and if you have people 
out every few yards, that will deter people from coming in. 
That is not our experience. What we found in San Diego, it 
pushed the traffic over to Arizona. It did not make it go away, 
it just pushed it to a different part. We also found in San 
Diego when the smugglers became frustrated enough, they would 
modify their tactics. They would gather groups of several 
hundred people and run right over the top of us.
    Mr. Cummings. What I am concerned about is a lot of what 
was just said. If I have somebody who sees that their 
opportunity for success, for their children's success, and they 
are already hopeless, and they see anybody standing in their 
way--I see it in my district with people trying to get drugs. 
Sometimes they will kill their family members to get money for 
drugs. We have people trying to get to the United States 
because they think that it is going to be the great place of 
opportunity. I am concerned with some of the same concerns.
    Mr. Simcox. We are very concerned, and it certainly shows 
the frustration and compassion of American citizens; for 
instance, 80-year-old World War II veterans and what we call 
vigil grannies who were sitting in lawn chairs. They take it 
very seriously. Citizens are putting themselves in harm's way 
if there is a real threat at the border, but that is the 
passion and the frustration level, and it should send a clear 
message to Congress and to the Border Patrol and to the Federal 
Government and to the President that we want this problem 
solved.
    They are willing to take that risk. A majority of our 
volunteers are retired law enforcement officers and military 
veterans, well trained, who are willing to give service to 
their country again. I think if we had an opportunity to train 
ex-military, military police, law enforcement officers; I would 
hate to see an 80-year-old grandmother--I would hate to see her 
blood spilled on that border because we cannot control it.
    Chairman Tom Davis. Do you have any Minutemen grandmothers?
    Mr. Simcox. Almost 40 percent were women. The majority of 
the volunteers were 50 or older, many in their 70's or 80's.
    Chairman Tom Davis. I don't think that is old.
    Mr. Cummings. If you had to guess percentagewise, how many 
were carrying a gun?
    Mr. Simcox. Forty percent of our volunteers were carrying 
sidearms only for self-defense purposes. Ninety-nine percent 
are concealed weapons card-carrying, well-trained individuals 
who understand the law when it comes to self-defense.
    Mr. Ruppersberger. Have you had anybody in Minutemen hurt?
    Mr. Simcox. Not at all. Not one incident ever.
    Mr. Ruppersberger. Any gunfire?
    Mr. Simcox. None in the 3\1/2\ years that we have been 
coordinating.
    Mr. Ruppersberger. So your coordination with Border Patrol 
is working?
    Mr. Simcox. Yes.
    Mr. Ruppersberger. And you are there as a deterrent to 
communicate where there is a problem, and the vigilante 
argument that is out there, there are no facts to support that?
    Mr. Simcox. No facts to support that. We work within the 
law to support the law. We do not take the law into our own 
hands. That would defeat the purpose.
    Mr. Ruppersberger. This whole immigration problem is very 
serious, and we as a government have not made it a priority. 
What compounds the problem is now the issue of terrorism, where 
people, the same drug dealers that are getting the drugs in, 
are going to be able to get al Qaeda into our country.
    Mr. Bonner, I think you have so many illegal immigrants in 
the United States right now. You have people who come here on a 
temporary visa and then stay, and that is from all over the 
world. If you were a Member of Congress, what would your 
priority be?
    We need a system to somehow identify the illegal immigrants 
within the United States. We have a problem, and the President 
has taken this position, it is my understanding, that we would 
really shut down a lot of business if we did not have the guest 
worker visas. That is an issue.
    How do we put together a program that works with 
immigration, because we have not put the resources at the 
border, we do not have a data base on illegal immigrants, and 
if they stay and have children, they become citizens of the 
United States? It is a very complex problem.
    The bigger picture that I threw out to you, what do you 
recommend from your expertise in this field?
    Mr. T.J. Bonner. It has been my experience that illegal 
aliens are not independently wealthy. They come here because of 
the work. If you cutoff the access to jobs and limit it to U.S. 
citizens, aliens who are lawfully admitted into this country on 
a permanent basis or as guest workers, you solve 98 percent of 
the problem. I think a guest worker program can work hand in 
glove.
    Mr. Ruppersberger. Because we would have a serious problem 
as far as certain industries without the guest work program. 
But how do you enforce it?
    Mr. T.J. Bonner. By legitimizing it and saying you cannot 
get a job unless you have permission.
    Mr. Ruppersberger. They can have identification cards, but 
even though you have a card, you do not go back. There has to 
be some kind of mechanism. I guess the employer has to take 
responsibility.
    Mr. T.J. Bonner. I think it is a self-enforcing one. If you 
are here on a temporary guest worker permit, anyone who employs 
you beyond the expiration of that is in violation of the law, 
so no one will give you a job. Your choice is to sit in the 
street and beg or go home. Most will go home.
    Mr. Simcox. I take a very pragmatic approach. We need to 
seal the border so people cannot come in illegally. We need to 
deport the criminals in our prisons, and we need to enforce the 
laws on the books. That is the problem. I can show you boxes 
full of Social Security cards, fake IDs that we find in the 
desert at lay-up areas.
    Mr. Ruppersberger. If we put the same priority in all of 
our agencies, and we would put that resource--and it is not 
always when they get over to the border, it is getting to them 
before.
    Ms. Kephart, it seems to me the best defense against 
terrorism is intelligence. If you go get this information ahead 
of time, and you deal with the people, and you get the Mexican 
Government to stand up and help us, we would be better off. We 
have not made that a priority.
    Mr. Simcox. I would like to see a Social Security 
verification system for employers so employers are held 
accountable for hiring illegal aliens in this country, and how 
about an employer-sponsored guest worker program, not sponsored 
by the taxpayers.
    Ms. Kephart. May I make one comment about the guest worker 
program?
    First of all, I want to make clear, I don't think 
citizenship and immigration services is built to be able to 
handle a guest worker program. Until you get the bureaucracy in 
line to be able to handle a huge surge in immigration benefits, 
you are going to have a problem.
    Mr. Ruppersberger. Guest workers are temporary.
    Ms. Kephart. But they still have to be adjudicated through 
the system.
    Second of all, you have to ensure there is security vetting 
for criminals and terrorists and those who have otherwise 
disobeyed our laws previously. Otherwise you are going to be 
giving legitimacy to folks we do not want to give legitimacy 
to.
    Third, you have to have a system that authenticates 
identities and ensure that people are who they say they are. 
That is my 2 cents on that.
    Mr. Tom Davis. Mr. Simcox, you talked about where do you go 
next. Do you look at the Canadian border, too?
    Mr. Simcox. Yes. We have 15,000 volunteers in the queue. We 
are moving to the northern border. We will be packaging our 
success and assisting other States to develop their own 
neighborhood border watch groups.
    Mr. Tom Davis. Mr. Bonner and Mr. Schermerhorn, thank you 
for the job you are doing. Your members are out there every day 
putting their lives on the line for us, and we appreciate it.
    Mr. Simcox and Ms. Kephart, we appreciate all of the ideas.
    The hearing is adjourned.
    [Whereupon, at 4:55 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Chris Cannon, Hon. Darrell 
E. Issa, Hon. Jon C. Porter, and Hon. Lynn A. Westmoreland, and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T1365.075

[GRAPHIC] [TIFF OMITTED] T1365.076

[GRAPHIC] [TIFF OMITTED] T1365.077

[GRAPHIC] [TIFF OMITTED] T1365.078

[GRAPHIC] [TIFF OMITTED] T1365.079

[GRAPHIC] [TIFF OMITTED] T1365.080

                                 <all>

</pre></body></html>
